   Pen
     nsion Benefit
           B       Guaran
                        nty Corrporatio
                                      on
         Office
              e of Ins
                     specto
                          or Gen
                               neral
                     Aud
                       dit Repo
                              ort




Audit off the Pen
A               nsion Be
                       enefit Guaranty Corporration’s
  Fiscal Year 20009 and 2008 Fiinancial Statem
                                             ments




               In
                ndependent Auditorr’s Reportt




          Pensioon Benefit Guarantyy Corpora
                                           ation’s
      Fiscal Yearr 2009 and
                          d 2008 Financial Sttatementss




                  Novem
                      mber 12, 2009
                                                AUD-2010--1 / FA-09-64
                                                                     4-1
              Audit of the Pension Benefit Guaranty Corporation’s
               Fiscal Year 2009 and 2008 Financial Statements

                    Audit Report AUD-2010-1 / FA-09-64-1




                                    Contents


Section I:      Independent Auditor’s Report

Section II:     Pension Benefit Guaranty Corporation’s
                Fiscal Year 2009 and 2008 Financial Statements

Section III:    Management Comments




                                   Acronyms

C&A             Certification and Accreditation
CFS             Consolidated Financial System
ERISA           Employee Retirement Income Security Act of 1974
FIPS PUB        Federal Information Processing Standards Publication
FMFIA           Federal Managers’ Financial Integrity Act of 1982
FY              Fiscal Year
IT              Information Technology
NIST SP         National Institute of Standards and Technology Special Publication
OIG             Office of Inspector General
OMB             Office of Management and Budget
PBGC            Pension Benefit Guaranty Corporation
U.S.C.          United States Code
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2009 and 2008 Financial Statements

      Audit Report AUD-2010-1 / FA-09-64-1




                    Section I

       Independent Auditor’s Report
a1
                                      Independent Auditor’s Report


To the Board of Directors, Management,
 and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


In our audits of the Single-Employer and Multiemployer Program Funds administered by the
Pension Benefit Guaranty Corporation (PBGC) for fiscal years (FY) 2009 and 2008 we found
the following:

•     The financial statements are presented fairly, in all material respects, in conformity with
      accounting principles generally accepted in the United States of America.

•     PBGC did not have effective internal control over financial reporting (including safeguarding
      assets) and compliance with laws and regulations and its operations as of
      September 30, 2009.

•     No reportable noncompliance in FY 2009 with laws and regulations we tested.

The following sections discuss in more detail (1) these conclusions, (2) our conclusions on other
accompanying information, (3) our audit objectives, scope, and methodology, and (4)
management comments and our evaluation.

                                    Opinion on Financial Statements

The financial statements, including the accompanying notes, present fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States of
America, the financial position of the Single-Employer and Multiemployer Program Funds
administered by PBGC as of September 30, 2009 and 2008, and the results of their operations
and cash flows for the FYs then ended.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As
of September 30, 2009, PBGC reported in its financial statements net deficit positions (liabilities
in excess of assets) in the Single-Employer and Multiemployer Program Funds of $21,077
million and $869 million, respectively. As discussed in Note 9 to the financial statements, loss
exposure for the Single-Employer and Multiemployer Programs that are reasonably possible as
a result of unfunded vested benefits are estimated to be $167,864 million and $326 million,
respectively. Management based the Single-Employer Program estimate on data for FYs ending
in calendar 2008 that was obtained from filings and submissions to the government and from




11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                                        1
                                       Offices in 17 states and Washington, DC      h
corporate annual reports. A subsequent adjustment for economic conditions through
September 30, 2009 has not been made, and as a result the exposure to loss for the
Single-Employer Program as of September 30, 2009 could be substantially different. In addition,
PBGC’s net deficit and long-term viability could be further impacted by losses from plans
classified as reasonably possible (or from other plans not yet identified as potential losses) as a
result of deteriorating economic conditions, the insolvency of a large plan sponsor or other
factors. PBGC has been able to meet their short-term benefit obligations. However, as
discussed in Note 1 to the financial statements, management believes that neither program at
present has the resources to fully satisfy PBGC’s long-term obligations to plan participants.

                                  Opinion on Internal Control

Because of the effect of the material weakness described below on the achievement of the
objectives of the control criteria contained in 31 U.S.C. 3512 (c), (d), the Federal Managers’
Financial Integrity Act of 1982 (FMFIA), PBGC has not maintained effective internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations
and its operations as of September 30, 2009.

We identified certain deficiencies in internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations and its operation that we
consider significant deficiencies, which combined constitute a material weakness. This material
weakness adversely affects PBGC’s ability to meet the internal control objectives listed in the
objectives, scope, and methodology section of this report, or meet Office of Management and
Budget (OMB) criteria for reporting matters under FMFIA.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control deficiency
or combination of control deficiencies that adversely affects the entity’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements that is more than inconsequential will not be
prevented or detected. We noted significant deficiencies in the following areas, which combined
constitute a material weakness:

   1. Entity-wide Security Program Planning and Management
   2. Access Controls and Configuration Management
   3. Integrated Financial Management Systems

A material weakness is a significant deficiency or combination of significant deficiencies that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected.

                                  ********************************

MATERIAL WEAKNESS

PBGC protects the pensions of approximately 44 million workers and retirees in more than
29,000 private defined benefit pension plans. Under Title IV of the Employee Retirement Income
Security Act of 1974 (ERISA), PBGC insures, subject to statutory limits, pension benefits of
participants in covered private defined benefit pension plans in the United States. To


                                                 2
accomplish its mission and prepare its financial statements, PBGC relies extensively on
information technology (IT). Internal controls over these operations are essential to ensure the
confidentiality, integrity, and availability of critical data while reducing the risk of errors, fraud,
and other illegal acts.

Our review of IT controls covered general and selected business process application controls.
General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing.

Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

As noted in FY 2008 and previous financial statement audit reports, PBGC’s systemic security
control weaknesses and the lack of an integrated financial management system posed
increasing and substantial risk to PBGC’s ability to carry out its mission during FY 2009.
Communication between PBGC’s key decision makers did not convey the urgent need for
decisive strategic decisions to correct fundamental weaknesses in PBGC’s IT infrastructure and
environment. Strategic IT decisions did not address these deficiencies and significant
weaknesses. Furthermore, these weaknesses were not addressed in the status of corrective
actions being reported. As a result, PBGC’s attempt to address entity-wide security
management program deficiencies and systemic security control weaknesses at the root cause
level had minimal effect.

PBGC’s decentralized approach to system development and configuration management has
exacerbated control weaknesses and encouraged inconsistency in implementing strong
technical controls and best practices. The influx of 620 plans for over 800,000 participants from
2002-2005, contributed to PBGC’s disjointed IT development and implementation strategy. The
mandate to meet PBGC’s mission objectives by implementing technologies to receive the influx
of plans superseded proper enterprise planning and IT security controls. The result was a series
of stovepipe solutions built upon unplanned and poorly integrated heterogeneous technologies
with varying levels of obsolescence.

PBGC’s management is starting to take actions to correct control weaknesses by conducting an
assessment of its Oracle database environment, initiating an IT Infrastructure modernization
program, completing the Enterprise Architecture segment architecture, and implementing
strategic decisions on IT sourcing.

Our current year audit work found deficiencies in the areas of security management, access
controls, configuration management, and segregation of duties. Control deficiencies were also
found in policy administration, and the certification and accreditation of major applications and
general support systems. An effective entity-wide security management program requires a
coherent strategy for the architecture of the IT infrastructure, and the deployment of systems.
The implementation of a coherent strategy provides the basis and foundation for the consistent
application of policy, controls, and best practices. PBGC first needs to develop and implement a
framework to improve their security posture. This framework will require time for effective control
processes to mature.



                                                  3
Based on our findings, we are reporting that the significant deficiencies in the following areas
constitute a material weakness for FY 2009:

   1. Entity-wide security program planning and management
   2. Access controls and configuration management
   3. Integrated financial management systems

A summary of the significant deficiencies and related recommendations follows.

In FY 2009, PBGC incorrectly reported progress in addressing weaknesses noted in its entity-
wide information security management program to correct systemic security control weaknesses
at the root cause level. The incorrect reporting in PBGC’s status report impacted strategic
decisions to prioritize resources for resolving deficiencies in PBGC’s IT infrastructure. PBGC
has initiated efforts in the reorganization and improvement of its security planning and
management through the design and implementation of a more coherent strategy to managing
its information systems. However, these efforts are not completed and additional time is needed
for further strategy development and implementation.

1. Entity-wide Security Program Planning and Management

   An entity-wide information security management program is the foundation of a security control
   structure and a reflection of senior management’s commitment to addressing security risks. The
   security management program should establish a framework and continuous cycle of activity
   for assessing risk, developing and implementing effective security procedures, and monitoring
   the effectiveness of these procedures. Overall policies and plans are developed at the entity-wide
   level. System and application-specific procedures and controls implement the entity-wide policy.
   Through the Federal Information Security Management Act of 2002 (FISMA), Congress requires
   each Federal agency to establish an agency-wide information security program to provide
   security to the information and information systems that support the operations and assets of the
   agency, including those managed by a contractor or other agency. OMB Circular No. A-130,
   Appendix III, Security of Federal Automated Information Resources, requires agencies to
   implement and maintain a program to assure that adequate security is provided for all
   agency information collected, processed, transmitted, stored, or disseminated in general
   support systems and major applications.

   During FY 2009, PBGC incorrectly reported progress in addressing entity-wide security
   management weaknesses, which did not agree with its own assessment of the state of its IT
   infrastructure and environment. PBGC’s assessment of its IT infrastructure and environment
   noted fundamental weaknesses in its architecture and design that prohibited the
   implementation of effective controls. Communication between PBGC’s key decision makers
   did not convey the urgent need for decisive strategic decisions and actions to correct
   fundamental weaknesses in PBGC’s IT infrastructure and environment. Resources were
   inappropriately allocated to address certain control weaknesses, even though underlying IT
   architecture and design issues prevented successful mitigation of these weaknesses. The
   sixty-five (65) common security controls PBGC previously identified and documented, were
   not implemented, despite PBGC’s reporting to having implemented forty-five (45) of them.
   Furthermore, PBGC did not complete the certification and accreditation (C&A) of thirteen
   (13) major applications and general support systems, although management reported the
   C&As were completed. PBGC’s quality control review of the C&A packages did not correct
   specific issues we identified in FY 2008. The C&A packages were deficient in their quality,
   accuracy, and consistency. The Information Assurance Handbook has not been updated to


                                                 4
   reflect changes in its IT policies and procedures. Consequently, management’s attempt to
   resolve prior year control weaknesses did not achieve its objective.

   PBGC’s entity-wide security program lacks focus and a coordinated effort to adequately
   resolve control deficiencies. These deficiencies prevent PBGC from implementing effective
   security controls to protect its information from unauthorized access, modification, and
   disclosure.

   Without a well-designed and fully implemented information security management program,
   there is increased risk that security controls are inadequate; responsibilities are unclear,
   misunderstood, and improperly implemented; and controls are inconsistently applied. Such
   conditions may lead to insufficient protection of sensitive or critical resources and
   disproportionately high expenditures for controls over low-risk resources.

   Recommendations:

   PBGC management should develop and implement a well-designed security management
   program that will provide security to the information and information systems that support the
   operations and assets of the Corporation, including those managed by contractors or other
   Federal agencies.

   PBGC management should effectively communicate to key decision makers the state of its
   IT infrastructure and environment to facilitate the prioritization of resources to address
   fundamental weaknesses.

2. Access Controls and Configuration Management

   Access controls should be in place to consistently limit, detect inappropriate access to
   computer resources (data, equipment, and facilities), or monitor access to computer programs,
   data, equipment, and facilities thereby protecting against unauthorized modification,
   disclosure, loss, or impairment. Such controls include both logical and physical security
   controls to ensure that Federal employees and contractors will be given only the access
   privileges necessary to perform business functions. Federal Information Processing
   Standards Publication (FIPS PUB) 200, Minimum Security Requirements for Federal
   Information and Information Systems, specifies minimum access controls for Federal
   systems. FIPS PUB 200 requires PBGC’s information system owners to limit information
   system access to authorized users.

   Access control policies and procedures should be formally developed, documented,
   disseminated, and periodically updated. Policies should address purpose, scope, roles,
   responsibility, and compliance issues. Procedures should facilitate the implementation of the
   policy and associated access controls. National Institute of Standards and Technology
   (NIST) Special Publication (SP) 800-12, An Introduction to Computer Security: The NIST
   Handbook, provides guidance on security policies and procedures.

   Industry best practices, NIST SP 800-64, Security Considerations in the System Development
   Life Cycle, and other Federal guidance all recognize the importance of configuration
   management when developing and maintaining a system or network. Through configuration
   management, the composition of a system is formally defined and tracked to ensure that an
   unauthorized change is not introduced. Changes to an information system can have a
   significant impact on the security of the system. Documenting information system changes


                                               5
   and assessing the potential impact on the security of the system on an ongoing basis is an
   essential aspect of maintaining the security posture. An effective entity-wide configuration
   management and control policy and associated procedures are essential to ensuring
   adequate consideration of the potential security impact of specific changes to an information
   system. Configuration management and control procedures are critical to establishing an
   initial baseline of hardware, software, and firmware components for the entity and
   subsequently controlling and maintaining an accurate inventory of any changes to the
   system.

   PBGC’s decentralized approach to system development, system deployments, and
   configuration management has created an environment that lacks a cohesive structure in
   which to implement controls and best practices. Weaknesses in the IT environment
   contributed to deficiencies in system configuration, segregation of duties, role-based access
   controls, and monitoring. Furthermore, PBGC’s information systems are overlapping and
   duplicative, employing obsolete and antiquated technologies that are costly to maintain. The
   state of PBGC’s IT environment led to increased IT staffing needs, manual workarounds,
   additional reconciliation procedures, extensive manipulation, and excessive manual
   processing that have been ineffective in providing adequate compensating controls to
   mitigate system control weaknesses. For example, the Financial Reporting and Account
   Analysis Group manually records present value of future benefits liabilities for single-
   employer and multiemployer programs in Consolidated Financial System (CFS), and the
   Financial Operations Department manually records Premiums Income, Premiums
   Receivable, and Unearned Premiums in CFS.

   Ineffective access and configuration management controls do not provide PBGC with
   sufficient assurance that financial information and financial assets are adequately
   safeguarded from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or
   destruction.

   Recommendation:

   PBGC management should develop and implement a coherent strategy for correcting IT
   infrastructure deficiencies and a framework for implementing common security controls, and
   mitigating the systemic issues related to access control by strengthening system
   configurations and user account management for all of PBGC’s information systems.

3. Integrated Financial Management Systems

   As reported in prior year audits, the risk of inaccurate, inconsistent, and redundant data is
   increased because PBGC lacks a single integrated financial management system. The
   current system cannot be readily accessed and used by financial and program managers
   without extensive manipulation, excessive manual processing, and inefficient balancing of
   reports to reconcile disbursements, collections, and general ledger data.

   OMB Circular A-127, Financial Management System, requires that Federal financial
   management systems be designed to provide for effective and efficient interrelationships
   between software, hardware, personnel, procedures, controls, and data contained within the
   systems.




                                              6
Until these control weaknesses are corrected, PBGC’s ability to accurately and efficiently
record, accumulate, and summarize information required for internal and external financial
reporting is impacted.

PBGC’s information systems employ unsupported technologies that pose additional risk to
the availability of financially significant systems. Many of these technologies are
unsupported and add to the challenges of integrating PBGC’s systems in an IT infrastructure
that lacks a cohesive architecture and design.

The agency’s ability to effectively and efficiently maintain and modernize its existing IT
environment depends, in a large part, on how well it employs certain IT management
controls that are embodied in statutory requirements, Federal guidance, and best practices.
Among other things, these controls include strategic planning and performance
measurement, portfolio-based investment management, human capital management,
enterprise architecture (and supporting segment architecture) development and use, and
establishing responsibility and accountability for modernization management.

If managed effectively, IT investments can have a dramatic impact on an organization’s
performance and accountability. If not carefully managed, they can result in wasteful
spending and lost opportunities for achieving mission goals and improving mission
performance. PBGC has had several false starts in modernizing its systems and
applications that have either been abandoned, such as the suspension of work on the
Premium and Practitioner System to replace the Premium Accounting System, or have been
ineffective in leading to the integration of its financially significant systems. Unless PBGC
develops and implements a well designed IT architecture and infrastructure both to guide
and constrain modernization projects, it risks investing further time and resources in systems
that do not reflect the Corporation’s priorities, are not well integrated, are potentially
duplicative, and do not optimally support mission operations and performance.

To its credit, PBGC has begun to develop an overall strategy to improve its IT architecture
and infrastructure, but much work remains before the strategy can be completed and
implemented. Steps PBGC has taken include the following:

1. PBGC has completed the identification of all systems that provide data required to
   prepare the financial statements.

2. PBGC has substantially completed the logical database model including standard data
   definitions and formats to be used throughout the Corporation.

3. PBGC has completed the development of segment architectures for CFS, and Premium
   Accounting. Segment Architectures will assist PBGC in identifying and planning financial
   technology recommendations for implementation and alternative analysis for business
   cases.

Major work remains to be completed to set the foundation for an integrated financial
management system, including the following:

1. Incorporating the results of PBGC’s Sourcing and Oracle Assessments in the Segment
   Architecture to support the selection of best alternative for PBGC’s new IT infrastructure.




                                            7
    2. Completing Segment Architectures for all PBGC Architecture Segments.

    3. Mapping all legacy systems to PBGC’s logical database model and identifying
       discrepancies.

    4. Developing business cases for CFS and Premium Accounting IT Investments to support
       budget request for system development.

    5. Developing and implementing new IT system solutions/functions in accordance with the
       Financial Management Segment Architecture and strategic system plan.

    6. Completing alternative analysis studies for CFS and Premium Accounting.

    Recommendation:

    PBGC management should develop and implement a coherent strategy to integrate PBGC’s
    financial management systems in accordance with OMB Circular A-127.

                           Compliance with Laws and Regulations

Our tests of PBGC’s compliance with selected provisions of laws and regulations for FY 2009
disclosed no instances of noncompliance that would be reportable under U.S. Generally
Accepted Government Auditing Standards or OMB audit guidance. However, the objective of
our audit was not to provide an opinion on overall compliance with laws and regulations.
Accordingly, we do not express such an opinion.

This conclusion is intended solely for the information and use of PBGC’s Office of Inspector
General, Board of Directors, management of PBGC, Government Accountability Office, Office of
Management and Budget, the United States Congress, and the President and is not intended to
be and should not be used by anyone other than these specified parties.

                             Objectives, Scope, and Methodology

PBGC’s management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America; (2) establishing,
maintaining, and evaluating the effectiveness of internal control to provide reasonable
assurance that the broad control objectives of FMFIA are met; its assertion of the internal
control over financial reporting included in PBGC’s Annual Management Report; and
(3) complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether (1) the financial
statements are presented fairly, in all material respects, in conformity with accounting principles
generally accepted in the United States of America; and (2) management maintained effective
internal control as of September 30, 2009 based on management’s assertion included in
PBGC’s Annual Management Report and on the criteria contained in FMFIA, the objectives of
which are the following:

•   Financial reporting: Transactions are properly recorded, processed, and summarized to
    permit the preparation of financial statements in conformity with accounting principles




                                                8
    generally accepted in the United States of America, and assets are safeguarded against
    loss from unauthorized acquisition, use, or disposition.

•   Compliance with applicable laws and regulations: Transactions are executed in accordance
    with laws and regulations that could have a direct and material effect on the financial
    statements and any other laws, regulations, and government wide policies identified by
    OMB audit guidance.

We are also responsible for testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements, and laws for which OMB audit
guidance requires testing and performing limited procedures with respect to certain other
information appearing in PBGC’s Annual Management Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the accounting principles
used and significant estimates made by management; (3) evaluated the overall presentation of
the financial statements; (4) obtained an understanding of the entity and its operations, including
its internal control related to financial reporting (including safeguarding assets) and compliance
with laws and regulations; (5) tested relevant internal control over financial reporting (including
safeguarding assets) and compliance, and evaluated the design and operating effectiveness of
internal control for the FY ended September 30, 2009; (6) considered the design of the process
for evaluating and reporting on internal control and financial management systems under
FMFIA; and (7) tested compliance for FY 2009 with selected provisions of laws and regulations
that have a direct and material effect on the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of its inherent limitations, internal control over financial reporting may not
prevent, or detect and correct misstatements. Also, projections of any evaluation of
effectiveness to future periods are subject to the risk that controls may become inadequate
because of changes in conditions, or that the degree of compliance with the policies or
procedures may deteriorate.

We did not test compliance with all laws and regulations applicable to PBGC. We limited our
tests of compliance to selected provisions of laws and regulations that have a direct and
material effect on the financial statements, and to those required by OMB audit guidance that
we deemed applicable to the financial statements for the FY ended September 30, 2009. We
caution that noncompliance may occur and not be detected by these tests and that such testing
may not be sufficient for other purposes.

We conducted our audits and examinations in accordance with auditing standards generally
accepted in the United States of America; Government Auditing Standards, issued by the
Comptroller General of the United States; attestation standards established by the American
Institute of Certified Public Accountants; and OMB audit guidance. We believe that our audits
and examinations provide a reasonable basis for our opinions.

We considered the material weaknesses identified above in determining the nature, timing, and
extent of our audit procedures on the 2009 financial statements.




                                                 9
                       Management Comments and Our Evaluation

In commenting on the draft of this report (see Section II of this report), PBGC’s management
concurred with the facts and conclusions in our report. We did not perform audit procedures on
PBGC’s written response and, accordingly, we express no opinion on it.


a1
Calverton, Maryland
November 12, 2009




                                             10
  Audit of the Pension Benefit Guaranty Corporation’s
   Fiscal Year 2009 and 2008 Financial Statements

        Audit Report AUD-2010-1 / FA-09-64-1




                     Section II

    Pension Benefit Guaranty Corporation’s
Fiscal Year 2009 and 2008 Financial Statements
                            PENSION BENEFIT GUARANTY CORPORATION
                             STATEMENTS OF FINANCIAL CONDITION


                                                                Single-Employer        Multiemployer            Memorandum
                                                                    Program              Program                   Total

                                                                    September 30,           September 30,          September 30,
(Dollars in millions)                                              2009     2008            2009    2008          2009     2008

ASSETS

Cash and cash equivalents                                      $ 3,747       $ 1,739   $      5    $     20    $ 3,752   $ 1,759
Securities lending collateral (Notes 3 and 5)                    2,507         3,772          0           0      2,507     3,772
Investments, at market (Notes 3 and 5):
     Fixed maturity securities                                  32,933        37,036       1,436       1,298    34,369    38,334
     Equity securities                                          24,133        12,921          0           0     24,133    12,921
     Real estate and real estate investment trusts                 596            3           0           0       596         3
     Other                                                         653           23           0           0       653        23
     Total investments                                          58,315        49,983       1,436       1,298    59,751    51,281



Receivables, net:
     Sponsors of terminated plans                                   85           19           0           0        85        19
     Premiums (Note 11)                                             601         185           2           2       603       187
     Sale of securities                                             195        1,357          0           0        195     1,357
     Derivative contracts (Note 4)                               2,860         7,124          0           0      2,860     7,124
     Investment income                                             394          398          16           7        410      405
     Other                                                            3           3           0           0         3         3
     Total receivables                                            4,138        9,086         18           9      4,156     9,095


Capitalized assets, net                                             29           32           0           0        29        32


Total assets                                                   $68,736       $64,612   $1,459      $1,327      $70,195   $65,939

The accompanying notes are an integral part of these financial statements.




                                                                     1
                                     PENSION BENEFIT GUARANTY CORPORATION
                                      STATEMENTS OF FINANCIAL CONDITION


                                                                  Single-Employer           Multiemployer         Memorandum
                                                                      Program                 Program                Total

                                                                       September 30,          September 30,          September 30,
(Dollars in Millions)                                                2009      2008          2009     2008         2009      2008


LIABILITIES


Present value of future benefits, net (Note 6):
    Trusteed plans                                             $ 80,506 $ 56,570        $       1 $         1   $ 80,507 $ 56,571
     Plans pending termination and trusteeship                       601        216             0           0       601       216
     Settlements and judgments                                        58         56             0           0        58        56
     Claims for probable terminations                              1,870      3,154             0           0     1,870     3,154
     Total present value of future benefits, net                  83,035     59,996             1           1    83,036    59,997



Present value of nonrecoverable future
     financial assistance (Note 7)                                                          2,296      1,768      2,296     1,768
Derivative contracts (Note 4)                                      3,014      8,338             0           0     3,014     8,338
Due for purchases of securities                                      172      1,847             0           0       172     1,847
Payable upon return of securities loaned                           2,507      3,772             0           0     2,507     3,772
Securities sold under repurchase agreements                          643        885             0           0       643       885
Unearned premiums                                                    355        331            31        31         386       362
Accounts payable and accrued expenses (Note 8)                        87        121             0           0        87       121
Total liabilities                                                 89,813     75,290         2,328      1,800     92,141    77,090

Net position                                                     (21,077)    (10,678)        (869)     (473)    (21,946)   (11,151)

Total liabilities and net position                             $ 68,736 $ 64,612        $1,459        $1,327    $ 70,195 $ 65,939

The accompanying notes are an integral part of these financial statements.




                                                                      2
                                         PENSION BENEFIT GUARANTY CORPORATION
                                  STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                              Single-Employer                          Multiemployer                       Memorandum
                                                                 Program                                 Program                              Total

                                                           For the Years Ended                      For the Years Ended                For the Years Ended
                                                             September 30,                            September 30,                      September 30,
(Dollars in Millions)                                       2009                    2008             2009                 2008          2009                  2008
UNDERWRITING
Income:
    Premium, net (Note 11)                          $      1,822             $    1,340         $     95         $         90     $     1,917       $        1,430
    Other                                                     16                     23                2                     0             18                   23
   Total                                                   1,838                  1,363               97                   90           1,935                1,453
Expenses:
    Administrative                                           368                    350                0                     0            368                  350
    Other                                                     15                       5               0                     1             15                    6
    Total                                                    383                    355                0                     1            383                  356
Other underwriting activity:
    Losses (credits) from completed and
     probable terminations (Note 12)                       4,234                   (826)               0                     0         4,234                  (826)
    Losses (credits) from financial
     assistance (Note 7)                                                                             614                  (271)           614                 (271)
    Actuarial adjustments (credits) (Note 6)                (573)                  (649)               0                    (1)         (573)                 (650)
   Total                                                   3,661                  (1,475)             614                 (272)        4,275                 (1,747)
Underwriting gain (loss)                                  (2,206)                  2,483             (517)                 361        (2,723)                 2,844


FINANCIAL:
Investment income (loss) (Note 13):
    Fixed                                                  4,543                    577              121                  121          4,664                   698
    Equity                                                 1,821                  (4,788)              0                     0          1,821                (4,788)
    Other                                                    (34)                     47               0                     0            (34)                   47
    Total                                                  6,330                  (4,164)            121                  121           6,451                (4,043)
Expenses:
    Investment                                                49                     50                0                     0             49                   50
    Actuarial charges (credits) (Note 6):
     Due to passage of time                                3,923                  3,400                0                     0         3,923                 3,400
     Due to change in interest rates                      10,551                  (7,564)              0                     0         10,551                (7,564)
    Total                                                 14,523                  (4,114)              0                     0        14,523                 (4,114)
Financial income (loss)                                   (8,193)                   (50)             121                  121         (8,072)                   71
Net income (loss)                                        (10,399)                 2,433             (396)                 482         (10,795)               2,915


Net position, beginning of year                          (10,678)                (13,111)           (473)                 (955)        (11,151)          (14,066)
Net position, end of year                           $    (21,077)            $   (10,678)       $   (869)        $        (473)   $   (21,946)      $    (11,151)

The accompanying notes are an integral part of these financial statements.




                                                                                            3
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                   Single-Employer               Multiemployer            Memorandum
                                                                        Program                     Program                    Total
                                                                  For the Years Ended         For the Years Ended       For the Years Ended
 (Dollars in millions)                                               September 30,                September 30,             September 30,
____________________________________________________           ______2009 ____2008           ____2009 ____2008         ____2009 ____2008
OPERATING ACTIVITIES:

  Premium receipts                                             $     1,431    $ 1,336        $    94     $     93     $ 1,525 $ 1,429
  Interest and dividends received                                    2,305      2,325              77          47        2,382    2,372
  Cash received from plans upon trusteeship                            368        155               0           0          368      155
  Receipts from sponsors/non-sponsors                                  188        137               0           0          188      137
  Receipts from the missing participant program                          7          7               0           0            7        7
  Other receipts                                                        15          1               0           0           15        1
  Benefit payments – trusteed plans                                 (4,337)    (4,247)              0           0       (4,337) (4,247)
  Financial assistance payments                                                                  (86)         (85)         (86)     (85)
  Settlements and judgments                                              0             (1)          0           0            0       (1)
  Payments for administrative and other expenses                      (424)         (372)           0           0         (424)   (372)
  Accrued interest paid on securities purchased                       (776)         (702)        (42)         (32)        (818)   (734)
Net cash provided (used) by operating activities (Note 15)          (1,223)       (1,361)         43           23       (1,180) (1,338)

INVESTING ACTIVITIES:

  Proceeds from sales of investments                                190,411   216,333          3,234         3,270     193,645 219,603
  Payments for purchases of investments                            (187,180) (215,434)        (3,292)       (3,280)   (190,472) (218,714)
  Net change in investment of securities lending collateral          (1,265)   (1,274)             0             0      (1,265)   (1,274)
  Net change in securities lending payable                            1,265     1,274              0             0       1,265     1,274
Net cash provided (used) by investing activities                      3,231       899            (58)          (10)      3,173       889

Net increase (decrease) in cash and cash equivalents                 2,008         (462)         (15)           13      1,993       (449)
Cash and cash equivalents, beginning of year                         1,739        2,201           20             7      1,759      2,208
Cash and cash equivalents, end of year                         $     3,747    $   1,739      $     5    $       20    $ 3,752    $ 1,759


The accompanying notes are an integral part of these financial statements




                                                                    4
NOTES TO FINANCIAL STATEMENTS
SEPTEMBER 30, 2009 AND 2008


Note 1 – Organization and Purpose
        The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal
corporation created by Title IV of the Employee Retirement Income Security Act of 1974 (ERISA)
and is subject to the provisions of the Government Corporation Control Act. Its activities are
defined in ERISA as amended by the Multiemployer Pension Plan Amendments Act of 1980, the
Single-Employer Pension Plan Amendments Act of 1986, the Pension Protection Act of 1987, the
Retirement Protection Act of 1994, the Consolidated Appropriations Act, 2001, the Deficit Reduction
Act of 2005, and the Pension Protection Act of 2006. The Corporation insures the pension benefits,
within statutory limits, of participants in covered single-employer and multiemployer defined benefit
pension plans.
        ERISA requires that PBGC programs be self-financing. ERISA provides that the U.S.
Government is not liable for any obligation or liability incurred by PBGC.
        For financial statement purposes, PBGC divides its business activity into two broad areas –
“Underwriting Activity” and “Financial Activity” – covering both single-employer and multiemployer
program segments. PBGC’s Underwriting Activity provides financial guaranty insurance in return for
insurance premiums (whether actually paid or not). Actual and expected probable losses that result
from the termination of underfunded pension plans are included in this category, as are actuarial
adjustments based on changes in actuarial assumptions, such as mortality. Financial Activity consists
of the performance of PBGC’s assets and liabilities. PBGC’s assets consist of premiums collected
from defined benefit plan sponsors, assets from distress or involuntarily terminated plans that PBGC
has insured, and recoveries from the former sponsors of those terminated plans. PBGC’s future
benefit liabilities consist of those future benefits, under statutory limits, that PBGC has assumed
following distress or involuntary terminations. Gains and losses on PBGC’s investments and changes
in the value of PBGC’s future benefit liabilities (e.g., actuarial charges such as changes in interest rates
and passage of time) are included in this area.
        As of September 30, 2009, the single-employer and multiemployer programs reported deficits
of $21.1 billion and $869 million, respectively. The single-employer program had assets of over
$68.7 billion offset by total liabilities of $89.8 billion, which include a total present value of future
benefits (PVFB) of approximately $83.0 billion. As of September 30, 2009, the multiemployer
program had assets over $1.4 billion offset by approximately $2.3 billion in present value of
nonrecoverable future financial assistance.

                                                      5
        Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations
for a number of years; however, neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.


Single-Employer and Multiemployer Program Exposure
        PBGC’s best estimate of the total underfunding in plans sponsored by companies with credit
ratings below investment grade, and classified by PBGC as reasonably possible of termination as of
September 30, 2009, was $168 billion. The comparable estimates of reasonably possible exposure for
2008 and 2007 were $47 billion and $66 billion, respectively. These estimates are measured as of
December 31 of the previous year (see Note 9). For 2009, this exposure is concentrated in the
following sectors: manufacturing (primarily automobile/auto parts, and primary and fabricated
metals), transportation (primarily airlines), services, and wholesale and retail trade.
        PBGC estimates that, as of September 30, 2009, it is reasonably possible that multiemployer
plans may require future financial assistance in the amount of $326 million. As of September 30, 2008
and 2007, these exposures were estimated at $30 million and $73 million, respectively.
        There is significant volatility in plan underfunding and sponsor credit quality over time, which
makes long-term estimation of PBGC’s expected claims difficult. This volatility, and the
concentration of claims in a relatively small number of terminated plans, have characterized PBGC’s
experience to date and will likely continue. Among the factors that will influence PBGC’s claims
going forward are economic conditions affecting interest rates, financial markets, and the rate of
business failures.
        Total underfunding reported under Section 4010 of ERISA is the most current source of
individual plan underfunding information; it has accounted for over 75% of the estimates of total
underfunding reported in the recent past. Prior to PPA, section 4010 required that companies
annually provide PBGC with information on their underfunded plans if the firm’s aggregate
underfunding exceeds $50 million or there is an outstanding lien for missed contributions exceeding
$1 million or an outstanding funding waiver of more than $1 million. Due to the decrease in the
quality and reliability of the estimates resulting from the changes to section 4010 reporting
requirements including the regulation-driven changes in the Required Interest Rate as well as PPA
changes to who must file, PBGC no longer publishes estimates of total underfunding in the Annual
Management Report. However, the Corporation will continue to publish Table S-47, "Various
Estimates of Underfunding in PBGC-Insured Plans," in its Pension Insurance Data Book where the
limitations of the estimates can be fully and appropriately described.
        Under the single-employer program, PBGC is liable for the payment of guaranteed benefits

                                                     6
 with respect only to underfunded terminated plans. An underfunded plan may terminate only if
 PBGC or a bankruptcy court finds that one of the four conditions for a distress termination, as
 defined in ERISA, is met or if PBGC involuntarily terminates a plan under one of five specified
 statutory tests. The net liability assumed by PBGC is generally equal to the present value of the future
 benefits payable by PBGC less amounts provided by the plan’s assets and amounts recoverable by
 PBGC from the plan sponsor and members of the plan sponsor’s controlled group, as defined by
 ERISA.
        Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance
 from PBGC to allow the plan to continue to pay participants their guaranteed benefits. PBGC
 recognizes assistance as a loss to the extent that the plan is not expected to be able to repay these
 amounts from future plan contributions, employer withdrawal liability or investment earnings.


 Note 2 – Significant Accounting Policies
         Basis of Presentation: The accompanying financial statements have been prepared in
 accordance with accounting principles generally accepted in the United States of America (GAAP).
 The preparation of the financial statements in conformity with GAAP requires management to make
 estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
 contingent assets and liabilities at the date of the financial statements and the reported amounts of
 revenues and expenses during the reporting period. Estimates and assumptions may change over
 time as new information is obtained or subsequent developments occur. Actual results could differ
 from those estimates.


       Recent Accounting Developments: During FY 2009, PBGC implemented three Statement of
Financial Accounting Standards (SFAS), including SFAS No. 157, “Fair Value Measurements;” SFAS No.
161 “Disclosures about Derivative Instruments and Hedging Activities;” SFAS No. 165 “Subsequent
Events;” and two FASB Staff Positions (FSP) No. FAS 157-3, “Determining the Fair Value of a
Financial Asset When the Market for That Asset Is Not Active” and FSP No. FAS 157-4, “Determining
Fair Value When the Volume and Level of Activity for the Asset or Liability Have Significantly
Decreased and Identifying Transactions That Are Not Orderly.”
       SFAS No. 157 defines fair value, establishes a framework for measuring fair value, outlines a fair
value hierarchy based on the inputs to valuation techniques used to measure fair value, and expands
financial statement disclosures about fair value measurements. See Note 5 for specifics regarding fair
value measurements. SFAS 161 requires enhanced disclosures about an entity’s derivative and hedging
activities. SFAS No. 165, codifies the guidance regarding the disclosure of events occurring subsequent

                                                     7
to the balance sheet date and does not change the definition of a subsequent event (i.e., an event or
transaction that occurs after the balance sheet date but before the financial statements are issued) but
requires disclosure of the date through which subsequent events were evaluated when determining
whether adjustment to or disclosure in the financial statements is required. FSP No. FAS 157-3 clarifies
the application of SFAS No. 157 in an inactive market, without changing its existing principles. FSP No.
FAS 157-4, provides guidance for estimating fair value when the volume and level of activity for an asset
or liability have decreased significantly.


         Valuation Method: A primary objective of PBGC’s financial statements is to provide
 information that is useful in assessing PBGC’s present and future ability to ensure that its plan
 beneficiaries receive benefits when due. Accordingly, PBGC values its financial assets at estimated
 fair value, consistent with the standards for pension plans contained in the FASB Accounting
 Standards Codification Section 960 (formerly SFAS No. 35, Accounting and Reporting by Defined Benefit
 Pension Plans). PBGC values its liabilities for the present value of future benefits and present value of
 nonrecoverable future financial assistance using assumptions derived from annuity prices from
 insurance companies, as described in the Statement of Actuarial Opinion. As described in Section
 960, the assumptions are “those assumptions that are inherent in the estimated cost at the (valuation)
 date to obtain a contract with an insurance company to provide participants with their accumulated
 plan benefits.” Also, in accordance with Section 960, PBGC selects assumptions for expected
 retirement ages and the cost of administrative expenses in accordance with its best estimate of
 anticipated experience.
         The FASB Accounting Standards Codification Section 820 (formerly SFAS No. 157) defines
 fair value, establishes a framework for measuring fair value in GAAP, and expands disclosures about
 fair value measurements. Section 820 applies to accounting pronouncements that require or permit
 fair value measurements. Prior to Section 820, there were different definitions of fair value with
 limited guidance for applying those definitions in GAAP; additionally, the issuance for applying fair
 value was dispersed among many accounting pronouncements that require fair value measurement.


         Revolving and Trust Funds: PBGC accounts for its single-employer and multiemployer
 programs’ revolving and trust funds on an accrual basis. Each fund is charged its portion of the
 benefits paid each year. PBGC includes totals for both the revolving and trust funds for presentation
 purposes in the financial statements; however, the single-employer and multiemployer programs are
 separate programs by law and, therefore, PBGC also reports them separately.
         ERISA provides for the establishment of the revolving fund where premiums are collected

                                                     8
and held. The assets in the revolving fund are used to cover deficits incurred by plans trusteed and to
provide funds for financial assistance. The Pension Protection Act of 1987 created a single-employer
revolving (7th) fund that is credited with all premiums in excess of $8.50 per participant, including all
penalties and interest charged on these amounts, and its share of earnings from investments. This
fund may not be used to pay PBGC’s administrative costs or the benefits of any plan terminated prior
to October 1, 1988, unless no other amounts are available.
        The trust funds include assets (e.g., pension plan investments) PBGC assumes (or expects to
assume) once a terminated plan has been trusteed, and related investment income. These assets
generally are held by custodian banks. The trust funds support the operational functions of PBGC.
        The trust funds reflect accounting activity associated with: (1) trusteed plans – plans for which
PBGC has legal responsibility – the assets and liabilities are reflected separately on PBGC’s
Statements of Financial Condition, the income and expenses are included in the Statements of
Operations and Changes in Net Position and the cash flows from these plans are included in the
Statements of Cash Flows, and (2) plans pending termination and trusteeship – plans for which
PBGC has begun the process for termination and trusteeship by fiscal year-end – the assets and
liabilities for these plans are reported as a net amount on the liability side of the Statements of
Financial Condition under “Present value of future benefits, net.” For these plans, the income and
expenses are included in the Statements of Operations and Changes in Net Position, but the cash
flows are not included in the Statements of Cash Flows, and (3) probable terminations – plans that
PBGC determines are likely to terminate and be trusteed by PBGC – the assets and liabilities for
these plans are reported as a net amount on the liability side of the Statements of Financial Condition
under “Present value of future benefits, net.” The accrued loss from these plans is included in the
Statements of Operations and Changes in Net Position as part of “Losses from completed and
probable terminations.” The cash flows from these plans are not included in the Statements of Cash
Flows. PBGC cannot exercise legal control over a plan’s assets until it becomes trustee.


        Allocation of Revolving and Trust Funds: PBGC allocates assets, liabilities, income and
expenses to each program’s revolving and trust funds to the extent that such amounts are not directly
attributable to a specific fund. Revolving fund investment income is allocated on the basis of each
program’s average cash and investments available during the year while the expenses are allocated on
the basis of each program’s present value of future benefits. Revolving fund assets and liabilities are
allocated according to the year-end balance of each program’s revolving funds. Plan assets acquired
by PBGC and commingled at PBGC’s custodian bank are credited directly to the appropriate fund
while the earnings and expenses on the commingled assets are allocated to each program’s trust funds

                                                     9
on the basis of each trust fund’s value, relative to the total value of the commingled fund.


        Cash and Cash Equivalents: Cash includes cash on hand and demand deposits. Cash
equivalents are securities with a maturity of one business day.


        Securities Lending Collateral: PBGC participates in a securities lending program
administered by its custodian bank. The custodian bank requires collateral that equals 102 percent to
105 percent of the securities lent. The collateral is held by the custodian bank. In addition to the
lending program managed by the custodian bank, some of PBGC’s investment managers are
authorized to invest in securities purchased under resale agreements (an agreement with a
commitment by the seller to buy a security back from the purchaser at a specified price at a designated
future date), and securities sold under repurchase agreements. The manager either receives cash as
collateral or pays cash out to be used as collateral. Any cash collateral received is invested by PBGC’s
investment agent.


        Investment Valuation and Income: PBGC bases market values on the last sale of a listed
security, on the mean of the “bid-and-ask” for nonlisted securities or on a valuation model in the case
of fixed income securities that are not actively traded. These valuations are determined as of the end
of each fiscal year. Purchases and sales of securities are recorded on the trade date. In addition,
PBGC invests in and discloses its derivative investments in accordance with the guidance contained in
the FASB Accounting Standards Codification Section 815 (formerly SFAS No. 133, Accounting for
Derivative Instruments and Hedging Activities, as amended). Investment income is accrued as earned.
Dividend income is recorded on the ex-dividend date. Realized gains and losses on sales of
investments are calculated using first-in, first-out for the revolving fund and average cost for the trust
fund. PBGC marks the plan’s assets to market and any increase or decrease in the market value of a
plan’s assets occurring after the date on which the plan is terminated must, by law, be credited to or
suffered by PBGC.


        Securities Purchased Under Resale Agreements: Securities purchased under resale
agreements are agreements whereby the purchaser agrees to buy securities from the seller, and
subsequently sell them back at a pre-agreed price and date. Those greater than one day are reported
under “Fixed maturity securities” as “Securities purchased under resale agreements” in the Note 3
table entitled “Investments of Single-Employer Revolving Funds and Single-Employer Trusteed
Plans,” on page 58. Resale agreements that mature in one day are included in “Cash and cash

                                                    10
equivalents” which are reported on the Statements of Financial Condition.


        Sponsors of Terminated Plans, Receivables: The amounts due from sponsors of
terminated plans or members of their controlled group represent the settled, but uncollected, claims
for employer liability (underfunding as of date of plan termination) and for contributions due their
plan less an allowance for estimated uncollectible amounts. PBGC discounts any amounts expected
to be received beyond one year for time and risk factors. Some agreements between PBGC and plan
sponsors provide for contingent payments based on future profits of the sponsors. The Corporation
will report any such future amounts in the period they are realizable. Income and expenses related to
amounts due from sponsors are reported in the underwriting section of the Statements of Operations
and Changes in Net Position. Interest earned on settled claims for employer liability and due and
unpaid employer contributions (DUEC) is reported as “Income: Other.” The change in the
allowances for uncollectible employer liability and DUEC is reported as “Expenses: Other.”


        Premiums: Premiums receivable represent the estimated earned but unpaid portion of the
premiums for plans that have a plan year commencing before the end of PBGC’s fiscal year and past
due premiums deemed collectible, including penalties and interest. The liability for unearned
premiums represents an estimate of payments received during the fiscal year that cover the portion of
a plan’s year after PBGC’s fiscal year-end. In FY 2009, PBGC began reporting “Premium income,
net” on the Statements of Operations and Changes in Net Position. “Premium income, net”
represents actual and estimated revenue generated from defined benefit pension plan premium filings
as required by Title IV of ERISA less bad debt expense for premium interest and penalties (see Note
11).


        Capitalized Assets: Capitalized assets include furniture and fixtures, electronic processing
equipment and internal-use software. This includes costs for internally developed software incurred
during the application development stage (system design including software configuration and
software interface, coding, testing including parallel processing phase). These costs are shown net of
accumulated depreciation and amortization.


        Present Value of Future Benefits (PVFB): The PVFB is the estimated liability for future
pension benefits that PBGC is or will be obligated to pay the participants of trusteed plans and the
net liability for plans pending termination and trusteeship. The PVFB liability (including trusteed
plans as well as plans pending termination and trusteeship) is stated as the actuarial present value of

                                                   11
estimated future benefits less the present value of estimated recoveries from sponsors and members
of their controlled group and the assets of plans pending termination and trusteeship as of the date of
the financial statements. PBGC also includes the estimated liabilities attributable to plans classified as
probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan
assets). PBGC uses assumptions to adjust the value of those future payments to reflect the time value
of money (by discounting) and the probability of payment (by means of decrements, such as for death
or retirement). PBGC also includes anticipated expenses to settle the benefit obligation in the
determination of the PVFB. PBGC’s benefit payments to participants reduce the PVFB liability.
        The values of the PVFB are particularly sensitive to changes in underlying estimates and
assumptions. These estimates and assumptions could change and the impact of these changes may be
material to PBGC’s financial statements (see Note 6).
            (1) Trusteed Plans–represents the present value of future benefit payments less the
            present value of expected recoveries (for which a settlement agreement has not been
            reached with sponsors and members of their controlled group) for plans that have
            terminated and been trusteed by PBGC prior to fiscal year-end. Assets are shown
            separately from liabilities for trusteed plans.
            (2) Pending Termination and Trusteeship–represents the present value of future benefit
            payments less the plans’ net assets (at fair value) anticipated to be received and the present
            value of expected recoveries (for which a settlement agreement has not been reached with
            sponsors and members of their controlled group) for plans for which termination action
            has been initiated and/or completed prior to fiscal year-end. Unlike trusteed plans, the
            liability for plans pending termination and trusteeship is shown net of plan assets.
            (3) Settlements and Judgments–represents estimated liabilities related to settled litigation.
            (4) Net Claims for Probable Terminations–In accordance with the FASB Accounting
            Standards Codification Section 450 (formerly SFAS No. 5, Accounting for Contingencies),
            PBGC recognizes net claims for probable terminations with $50 million or more of
            underfunding, which represent PBGC’s best estimate of the losses, net of plan assets and
            the present value of expected recoveries (from sponsors and members of their controlled
            group) for plans that are likely to terminate in the future. These estimated losses are based
            on conditions that existed as of PBGC’s fiscal year-end. Management believes it is likely
            that one or more events subsequent to PBGC’s fiscal year-end will occur, confirming the
            loss. Criteria used for classifying a specific plan as a probable termination include, but are
            not limited to, one or more of the following conditions: the plan sponsor is in liquidation
            or comparable state insolvency proceeding with no known solvent controlled group

                                                     12
           member; sponsor has filed or intends to file for distress plan termination and the criteria
           will likely be met; or PBGC is considering the plan for involuntary termination. In
           addition, management takes into account other economic events and factors in making
           judgments regarding the classification of a plan as a probable termination. These events
           and factors may include, but are not limited to: the plan sponsor is in bankruptcy or has
           indicated that a bankruptcy filing is imminent; the plan sponsor has stated that plan
           termination is likely; the plan sponsor has received a going concern opinion from its
           independent auditors; or the plan sponsor is in default under existing credit agreement(s).
           In addition, a reserve for small unidentified probable losses and incurred but not reported
           (IBNR) claims is recorded based on an actuarial loss development methodology (ratio
           method) (see Note 6).
           (5) PBGC identifies certain plans as high risk if the plan sponsor is in Chapter 11
           proceedings or the sponsor’s senior unsecured debt is rated CCC+/Caa1 or lower by S&P
           or Moody’s respectively. PBGC specifically reviews each plan identified as high risk and
           classifies those plans as probable if, based on available evidence, PBGC concludes that
           plan termination is likely (based on criteria described in (4) above). Otherwise, high risk
           plans are classified as reasonably possible.
           (6) In accordance with Section 450, PBGC’s exposure to losses from plans of companies
           that are classified as reasonably possible is disclosed in the footnotes. In order for a plan
           sponsor to be specifically classified as reasonably possible, it must first have $5 million or
           more of underfunding, as well as meet additional criteria. Criteria used for classifying a
           company as reasonably possible include, but are not limited to, one or more of the
           following conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver
           pending or outstanding with the Internal Revenue Service; sponsor missed minimum
           funding contribution; sponsor’s bond rating is below-investment-grade for Standard &
           Poor’s (BB+) or Moody’s (Ba1); sponsor has no bond rating but unsecured debt is below
           investment grade; or sponsor has no bond rating but the ratio of long-term debt plus
           unfunded benefit liability to market value of shares is 1.5 or greater (see Note 9).


        Present Value of Nonrecoverable Future Financial Assistance: In accordance with Title
IV of ERISA, PBGC provides financial assistance to multiemployer plans, in the form of loans, to
enable the plans to pay guaranteed benefits to participants and reasonable administrative expenses.
These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of each
plan.

                                                   13
        The present value of nonrecoverable future financial assistance represents the estimated
nonrecoverable payments to be provided by PBGC in the future to multiemployer plans that will not
be able to meet their benefit obligations. The present value of nonrecoverable future financial
assistance is based on the difference between the present value of future guaranteed benefits and
expenses and the market value of plan assets, including the present value of future amounts expected
to be paid by employers, for those plans that are expected to require future assistance. The amount
reflects the rates at which, in the opinion of management, these liabilities (net of expenses) could be
settled in the market for single-premium nonparticipating group annuities issued by private insurers
(see Note 7).
        A liability for a particular plan is included in the “Present Value of Nonrecoverable Future
Financial Assistance” when it is determined that the plan is currently, or will likely become in the
future, insolvent and will require assistance to pay the participants their guaranteed benefit.
Determining insolvency requires considering several complex factors, such as an estimate of future
cash flows, future mortality rates, and age of participants not in pay status.
        Each year, PBGC analyzes insured multiemployer plans to identify those plans that are at risk
of becoming claims on the insurance program. Regulatory filings with PBGC and the other ERISA
agencies are important to this analysis and determination of risk. For example, a multiemployer plan
that no longer has contributing employers files a notice of termination with PBGC. In general, if a
terminated plan’s assets are less than the present value of its liabilities, PBGC considers the plan a
probable risk of requiring financial assistance in the future.
        PBGC also analyzes ongoing multiemployer plans (i.e., plans that continue to have employers
making regular contributions for covered work) to determine whether any such plans may be
probable or possible claims on the insurance program. In conducting this analysis each year, PBGC
examines plans that are chronically underfunded, have poor cash flow trends, a falling contribution
base, and plans that may lack a sufficient asset cushion to weather temporarily income losses. A
combination of these factors, or any one factor that is of sufficient concern, leads to a more detailed
analysis of the plan’s funding and the likelihood that the contributing employers will be able to
maintain the plan.


        Securities Sold Under Repurchase Agreements: Securities sold under repurchase
agreements are agreements with a commitment by the seller to buy a security back from the purchaser
at a specified price and designated future date. These agreements represent collateralized short-term
loans for which the collateral may be a treasury security, money market instrument, federal agency
security, or mortgage-backed security. On the Statements of Financial Condition, securities sold

                                                    14
under repurchase agreements are reported as a liability, “Securities sold under repurchase agreements”
at the amounts at which the securities will be subsequently reacquired.


        Other Expenses: These expenses represent an estimate of the net amount of receivables
deemed to be uncollectible during the period. The estimate is based on the most recent status of the
debtor (e.g., sponsor), the age of the receivables and other factors that indicate the element of
uncollectibility in the receivables outstanding.


        Losses from Completed and Probable Terminations: Amounts reported as losses from
completed and probable terminations represent the difference as of the actual or expected date of
plan termination (DOPT) between the present value of future benefits (including amounts owed
under Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related plan
assets and the present value of expected recoveries from sponsors and members of their controlled
group (see Note 12). When a plan terminates, the previously recorded probable net claim is reversed
and newly estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line
PVFB - Plans pending termination and trusteeship (this value is usually different than the amount
previously reported), with any change in the estimate being recorded in the Statements of Operations
and Changes in Net Position. In addition, the plan’s net income from date of plan termination to the
beginning of PBGC’s fiscal year is included as a component of losses from completed and probable
terminations for plans with termination dates prior to the year in which they were added to PBGC’s
inventory of terminated plans.


        Actuarial Adjustments and Charges (Credits): PBGC classifies actuarial adjustments
related to changes in method and the effect of experience as underwriting activity; actuarial
adjustments are the result of the movement of plans from one valuation methodology to another, e.g.,
nonseriatim (calculating the liability for the group) to seriatim (calculating separate liability for each
person), and of new data (e.g., deaths, revised participant data). Actuarial charges (credits) related to
changes in interest rates and passage of time is classified as financial activity. These adjustments and
charges (credits) represent the change in the PVFB that results from applying actuarial assumptions in
the calculation of future benefit liabilities (see Note 6).


        Depreciation and Amortization: PBGC calculates depreciation on the straight-line basis
over estimated useful lives of 5 years for equipment and 10 years for furniture and fixtures. PBGC
calculates amortization for capitalized software, which includes certain costs incurred for purchasing

                                                      15
and developing software for internal use, on the straight-line basis over estimated useful lives not to
exceed 5 years, commencing on the date that the Corporation determines that the internal-use
software is implemented. Routine maintenance and leasehold improvements (the amounts of which
are not material) are charged to operations as incurred. Capitalization of software cost occurs during
the development stage and costs incurred during the preliminary project and post implementation
stages are expensed as incurred.


        Reclassification: Certain amounts in the 2008 financial statements have been reclassified to
be consistent with the 2009 presentation. All such changes had no impact on the FY 2008 net
position.


Note 3 – Investments
        Premium receipts are invested through the revolving fund in U.S. Treasury securities. The
trust funds include assets PBGC assumes or expects to assume with respect to terminated plans (e.g.,
recoveries from sponsors) and investment income thereon. These assets generally are held by
custodian banks. The basis and market value of the investments by type are detailed below as well as
related investment profile data. The basis indicated is cost of the asset if assumed after the date of
plan termination or the market value at date of plan termination if the asset was assumed as a result of
a plan’s termination. PBGC marks the plan’s assets to market and any increase or decrease in the
market value of a plan’s assets occurring after the date on which the plan is terminated must, by law,
be credited to or suffered by PBGC. Investment securities denominated in foreign currency are
translated into U.S. dollars at the prevailing exchange rates at period end. Purchases and sales of
investment securities, income, and expenses are translated into U.S. dollars at the prevailing exchange
rates on the respective dates of the transactions. The portfolio does not isolate that portion of the
results of operations resulting from changes in foreign exchange rates of investments from the
fluctuations arising from changes in market prices of securities held. Such fluctuations are included
with the net realized and unrealized gain or loss on investments. For PBGC’s securities, unrealized
holding gains and losses are both recognized by including them in earnings. Unrealized holding gains
and losses measure the total change in fair value – consisting of unpaid interest income earned or
unpaid accrued dividend and the remaining change in fair value from holding the security. Beginning
in FY 2009, PBGC began reporting “Securities sold under repurchase agreements” separately on the
Statements of Financial Condition to improve transparency; previously they were included under
“Fixed maturity securities.” In order to support year-to-year comparisons, the FY 2008 balances were
reclassified to be consistent with the FY 2009 presentation.

                                                   16
              As the following table illustrates, the market value of investments of the single-employer
 program increased significantly from September 30, 2008, to September 30, 2009.


INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS AND SINGLE-EMPLOYER TRUSTEED PLANS
                                                                               September 30,                          September 30,
                                                                                    2009                                   2008
                                                                                          Market                                  Market
(Dollars in millions)                                                          Basis       Value                     Basis          Value
Fixed maturity securities:
   U.S. Government securities                                               $16,620          $17,282              $17,509            $17,587
   Commercial paper/securities purchased
       under resale agreements*                                                   49               49                 656                656
   Asset backed securities*                                                    2,844            2,728               4,973              4,630
   Corporate bonds and other *                                                12,476          12,874               16,835             14,163
   Subtotal                                                                   31,989          32,933               39,973             37,036
Equity securities:
 Public equity*                                                               17,829          22,896                9,287             12,007
 Private equity                                                                1,471            1,237                 955                914
   Subtotal                                                                   19,300          24,133               10,242             12,921
Real estate and real estate investment trusts                                     637             596                    4                  3
Insurance contracts and other investments                                       479              653                   18                 23
Total**                                                                     $52,405          $58,315 ***          $50,237            $49,983

*The reclassified FY 2008 balances include adjustments to (1) Commercial paper/securities purchased under resale agreements,
(2) Asset backed securities, (3) Corporate bonds and other, and (4) Public equity. This did not result in any overall change to
the FY 2008 net position as these reclassifications were offset primarily through adjustments to cash equivalents, derivative contracts
payable, derivative contracts receivable, and securities sold under repurchase agreements.
**Total includes securities on loan at September 30, 2009, and September 30, 2008, with a market value of $2.450 billion and $3.623 billion,
 respectively.
***This total of $58,315 million of investments at market value represents the Single-Employer assets only. It differs from the total investments
of $63.91 billion shown on page 16 of this report which includes investments of the Multiemployer Program, cash and cash equivalents and accrued
investment income.




INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
                                                                               September 30,                          September 30,
                                                                                    2009                                   2008
                                                                                          Market                                  Market
(Dollars in millions)                                                          Basis       Value                     Basis          Value
Fixed maturity securities:
  U.S. Government securities                                                  $1,382          $1,436               $1,296             $1,298
Equity securities                                                                  0               0                    0                  0
Total                                                                         $1,382          $1,436               $1,296             $1,298




                                                                             17
        INVESTMENT PROFILE
                                                                          September 30,
                                                                      2009                2008
         Fixed Income Assets
         Average Quality                                              AA                   AA
         Average Maturity (years)                                     14.7                13.3
         Duration (years)                                              9.7                 9.5
         Yield to Maturity (%)                                         4.7                 6.3
         Equity Assets
         Average Price/Earnings Ratio                                 25.5                15.4
         Dividend Yield (%)                                            2.3                 2.4
         Beta                                                         1.04                1.04




Derivative Instruments: PBGC assigns investment discretion to all of its investment managers.
These investment managers, who act as fiduciaries to PBGC, determine when it may or may not be
appropriate to utilize derivatives in the portfolio(s) for which they are responsible. Investments in
derivatives carry many of the same risks of the underlying instruments and carry additional risks that
are not associated with direct investments in the securities underlying the derivatives. Furthermore,
risks may arise from the potential inability to terminate or sell derivative positions, although derivative
instruments are generally more liquid than physical market instruments. A liquid secondary market
may not always exist for certain derivative positions at any time. Over-the-counter derivative
instruments also involve counterparty risk that the other party to the derivative instrument will not
meet its obligations.
        The use of derivatives by PBGC investment managers is restricted in so far as portfolios
cannot utilize derivatives to create leverage in the portfolios for which they are responsible. That is,
the portfolios shall not utilize derivatives to leverage the portfolio beyond the maximum risk level
associated with a fully invested portfolio of physical securities. Such controls are necessary because the
use of leverage can magnify the effects of changes in the value of the portfolio’s investments, and
would make such investments more volatile.
        Derivatives are accounted for at market value in accordance with the FASB Accounting
Standards Codification Section 815 (formerly SFAS No. 133, as amended). Derivatives are marked to
market with changes in value reported within financial income. These instruments are used to (1)
mitigate risk (e.g., adjust duration or currency exposures), (2) enhance investment returns, and/or (3) as
liquid and cost efficient substitutes for positions in physical securities. The standard requires disclosure
of fair value on these instruments. During fiscal years 2008 and 2009, PBGC invested in investment
products that used various U.S. and non-U.S. derivative instruments including but not limited to:
                                                  18
money market, S&P 500 index futures, options, government bond futures, TBA (“to be announced”)
forward contracts, interest rate, credit default and total return swaps and swaption contracts, stock
warrants and rights, debt option contracts, and foreign currency forward and option contracts. Some
of these derivatives are traded on organized exchanges and thus bear minimal counterparty risk. The
counterparties to PBGC’s non-exchange-traded derivative contracts are major financial institutions
subject to ISDA (International Swaps and Derivatives Association, Inc.) master agreements. PBGC
monitors its counterparty risk and exchanges collateral under most contracts to further support
performance by its counterparties.
        A futures contract is an agreement between a buyer or seller and an established futures exchange
clearinghouse in which the buyer or seller agrees to take or make a delivery of a specific amount of a
financial instrument at a specified price on a specific date (settlement date). The futures exchange and
clearinghouses clear, settle, and guarantee transactions occurring through its facilities. Upon entering
into a futures contract, an “initial margin” amount (in cash or liquid securities) of generally one to six
percent of the face value indicated in the futures contract is required to be deposited with the broker.
Open futures positions are marked to market daily. Subsequent payments known as “variation margin”
are made or received by the portfolio dependent upon the daily fluctuations in value of the underlying
contract. PBGC maintains adequate liquidity in its portfolio to meet these margin calls. Futures
contracts are valued at the most recent settlement price.
        PBGC also invests in forward contracts. A bond forward is an agreement whereby the short
position agrees to deliver pre-specified bonds to the long position at a set price and within a certain time
window. A TBA forward instrument is an underlying contract on a mortgage backed security (MBS) to
buy or sell a MBS which will be delivered at an agreed-upon date in the future. The pool of actual
securities is to be announced 48 hours prior to the established trade settlement date. A forward foreign
currency exchange contract is a commitment to purchase or sell a foreign currency at the settlement date
at a negotiated rate. Foreign currency forward and option contracts may be used as a substitute for cash
currency holdings, in order to minimize currency risk exposure to changes in foreign currency exchange
rates and to adjust overall currency exposure to reflect the investment views of the fixed income
portfolio managers regarding relationships between currencies.
         A swap is an agreement between two parties to exchange different financial returns on a
notional investment amount. The major forms of swaps traded are interest rate swaps, credit default
swaps, and total return swaps. PBGC uses swap and swaption (an option on a swap) contracts to adjust
exposure to interest rates, fixed income securities exposure, credit exposure, equity exposure, and to
generate income based on the investment views of the portfolio managers regarding interest rates,
                                                     19
indices and debt issues.
        Interest rate swaps involve exchanges of fixed rate and floating rate interest. Interest rate swaps
are often used to alter exposure to interest rate fluctuations, by swapping fixed rate obligations for
floating rate obligations, or vice versa. The counterparties to the swap agree to exchange interest
payments on specific dates, according to a predetermined formula. The payment flows are usually
netted against each other, with one party paying the difference to the other.
        A credit default swap is a contract between a buyer and seller of protection against pre-defined
credit events. The portfolio may buy or sell credit default swap contracts to seek to increase the
portfolio’s income or to mitigate the risk of default on portfolio securities.
        A total return swap is a contract between a buyer and seller of exposures to certain asset classes
such as equities. The portfolio may buy or sell total return contracts to seek to increase or reduce the
portfolio’s exposure to certain asset classes.
        An option contract is a contract in which the writer of the option grants the buyer of the option
the right to purchase from (call option) or sell to (put option) the writer a designated instrument at a
specified price within a specified period of time.
        Stock warrants and rights allow PBGC to purchase securities at a stipulated price within a
specified time limit.
        For the fiscal years ended September 30, 2009 and 2008, gains and losses from settled margin
calls are reported in Investment income on the Statements of Operations and Changes in Net Position.
Securities pledged as collateral for derivative contracts, e.g., futures and swaps, are recorded as a
receivable or payable.
        During FY 2009, PBGC’s investment managers decreased their utilization of derivative
instruments as they became a less preferred way of implementing portfolio strategies relative to FY 2008.




                                                     20
        The following table summarizes the notional amounts and fair market values (FMV) of all
derivative financial instruments held or issued for trading as of September 30, 2009, and September 30,
2008. The dollar amounts in the FMV column represent the net theoretical amount needed or received
to settle the derivative contract.


                                                                        Sept. 30, 2009                   Sept. 30, 2008
   DERIVATIVE CONTRACTS                                             Notional        FMV                Notional     FMV
   (Dollars in millions)

   Futures
     Contracts in a receivable position                              $ 4,321         $    40             $ 7,756      $155
     Contracts in a payable position                                   3,392             (46)         ____7,626      _ (34) __
   Total futures                                                       7,713              (6)             15,382       121


   Swap agreements
    Interest rate swaps                                                   939            (12)              11,211        10
    Credit default swaps                                                1,439            (18)               6,370       (90)
   Total swap agreements                                                2,378            (30)              17,581       (80)


   Option contracts
    Options purchased (long)                                               22              0*               5,501        51
    Options written (sold short)                                        1,186             (3)               1,438       (31)
   Total option contracts                                               1,208             (3)               6,939        20


   Forward contracts
    Forwards – foreign exchange                                          879              4                1,790         (6)
    Forwards – bonds/TBA’s                                              1,064            (7)               2,657       (21)
   Total forward contracts                                              1,943            (3)               4,447       (27)

   * Less than $500,000

 Additional information specific to derivative instruments is disclosed in Note 4 – Derivative Contracts, and Note 5 - Fair
 Value Measurements.

        Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting Standards
 Codification Section 815 (formerly SFAS 161, Disclosures about Derivative Instruments and Hedging
 Activities). This standard requires the disclosure of fair values of derivative instruments and their gains
 and losses in its financial statements of both the derivative positions existing at period end and the
 effect of using derivatives during the reporting period. The first table below identifies the location of
 derivative fair market values on the Statements of Financial Condition while the second table
 identifies the location of derivative gains and losses on the Statements of Operations and Changes in
 Net Position.
                                                            21
FAIR VALUES OF DERIVATIVE INSTRUMENTS
                                         For the year ended September 30, 2009
                                          Asset Derivative                             Liability Derivative
                                          Statements of Financial                      Statements of Financial
(Dollars in millions)                     Condition Location            FMV            Condition Location            FMV
Futures                                   Derivative Contracts           $40            Derivative Contracts        $ (46)

Swap agreements
  Interest rate swaps                     Investments-Fixed               (12)
  Credit default swaps                    Investments-Fixed               (18)

Option contracts
  Option contracts                        Investments-Fixed                (1)         Derivative Contracts             (2)
  Option contracts                        Investments-Equity                0

Forwards - foreign exchange               Derivative Contracts          1,066          Derivative Contracts         (1,062)

Forwards - bonds/TBAs                     Investments-Fixed *               0          Derivative Contracts             (7)

* Less than $500,000


EFFECT OF DERIVATIVE INSTRUMENTS ON THE STATEMENTS OF OPERATIONS
AND CHANGES IN NET POSITION
                                           For the year ended September 30, 2009
                                                          Location of Gain or                          Amount of Gain or
                                                          (Loss) Recognized                            (Loss) Recognized
                                                          in Income on                                 in Income on
(Dollars in millions)                                     Derivatives                                  Derivatives
Futures
  Contracts in a receivable position                      Investment Income-Fixed                       ($510)
  Contracts in a receivable position                      Investment Income-Equity                         (2)
  Contracts in a payable position                         Investment Income-Fixed                         267
  Contracts in a payable position                         Investment Income-Equity                          0

Swap agreements
  Interest rate swaps                                     Investment Income-Fixed                         486
  Credit default swaps                                    Investment Income-Fixed                         (72)

Option contracts
  Options purchased (long)                                Investment Income-Fixed                          (21)
  Options purchased (long)                                Investment Income-Equity*                          0
  Options written (sold short)                            Investment Income-Fixed                           27
  Options written (sold short)                            Investment Income-Equity                           0

Forward contracts
  Forwards - foreign exchange                             Investment Income-Fixed                           61
  Forwards - bonds/TBAs                                   Investment Income-Fixed                          (38)

* Less than $500,000
Additional information specific to derivative instruments is disclosed in Note 4 – Derivative Contracts and Note 5 – Fair
Value Measurements.

                                                           22
 Securities Lending: PBGC participates in a securities lending program administered by its
 custodian bank whereby the custodian bank lends PBGC’s securities to third parties. The custodian
 bank requires initial collateral from the borrower that equals 102 percent to 105 percent of the
 securities lent. The collateral is held by the custodian bank. The manager either receives cash as
 collateral or pays cash to cover mark-to-market changes. Any cash collateral received is invested.
 The total value of securities on loan at September 30, 2009, and September 30, 2008, was $2.450
 billion and $3.623 billion, respectively. The decrease is primarily attributed to the lower amount of
 lendable assets in U.S. government securities in the PBGC investment program during FY 2009 that
 have historically higher percent on loan versus other asset classes. As a result, the amount of
 securities on loan has decreased.
        The amount of cash collateral received for these loaned securities was $2.507 billion at
 September 30, 2009, and $3.772 billion at September 30, 2008. These amounts are recorded as assets
 and are offset with a corresponding liability. PBGC had earned income from securities lending of
 $26.2 million and $34.6 million for the years ending September 30, 2009, and September 30, 2008,
 respectively. Net income from securities lending is included in “Investment income – Fixed” on the
 Statements of Operations and Changes in Net Position. As of September 30, 2009, PBGC loaned out
 $2.450 billion in securities of approximately $13.740 billion of securities available for securities
 lending.
         Of the $2.450 billion market value of securities on loan at September 30, 2009, approximately
 67% are lent U.S. government securities and approximately 32% are lent U.S. corporate securities.


Note 4 – Derivative Contracts

        PBGC’s derivative financial instruments are recorded at fair value and are included on the
Statements of Financial Condition as investments and derivative contracts. Amounts in the table below
represent the derivative contracts in a receivable position at financial statement date. Included in the
total of $2,860 million is $1,686 million representing securities sold but not yet settled. The securities
have been removed from the market value of investments. Collateral deposits of $68 million which
represents cash paid as collateral on certain derivative contracts are shown. At September 30, 2008,
these collateral deposits were included in cash equivalents and investments; beginning in FY 2009, they
are included in derivative contracts receivable as noted in the table below to support year-to-year
comparative reporting (and which had no impact on the FY 2008 net position).


                                                     23
DERIVATIVE CONTRACTS--OPEN RECEIVABLES
                                                                                       September 30,                               September 30,
(Dollars in millions)                                                                         2009                                       2008
Open receivable trades on derivatives:
     Collateral deposits                                                                      $    68                                   $   293
     Futures contracts                                                                             40                                       155
     Foreign exchange forwards                                                                  1,066                                     2,099
     Bond forwards                                                                                 60                                       855
     To be announced (TBA) forwards*                                                            1,574                                     2,969
     Interest rate swaps                                                                           50                                        79
     Credit default swaps                                                                           2                                       674
Total                                                                                          $2,860                                   $ 7,124



* TBA (to be announced) is a contract for the purchase or sale of mortgage-backed securities to be delivered on a future date.
 The term TBA is derived from the fact that the actual mortgage-backed security that will be delivered to fulfill a TBA trade is
 not designated at the time the trade is made. The securities are to be announced 48 hours prior to the established trade
 settlement date. TBAs are issued by FHLMC, FNMA and GNMA.


            Amounts in the Derivative Contracts table below represent derivative contracts in a payable
position at financial statement date which PBGC reflects as a liability. Included in this total payable of
$3,014 million is $659 million representing securities purchased but not yet settled. These securities
have been included in the market value of investments. Collateral deposits of $102 million, which
represents cash received as collateral on certain derivative contracts, are included. At September 30,
2008, these collateral deposits were included in accounts payable and investments; beginning in FY 2009,
they are included in derivative contracts payable as noted in the table below to support year-to-year
comparative reporting (and which had no impact on the FY 2008 net position). The To Be Announced
(TBA) forward payable amount of $1,691 million on the chart on page 66 includes $1,143 million of
short sales and $548 million of open trades. (The short sales represent the sale of securities that have
been borrowed with the intention of buying identical assets back at a later date to return to the lender).


DERIVATIVE CONTRACTS--OPEN PAYABLES
                                                                                      September 30,                                September 30,
(Dollars in millions)                                                                        2009                                        2008
Open payable trades on derivatives:
     Collateral deposits                                                                      $   102                                   $    45
     Futures contracts                                                                             46                                        34
     Foreign exchange forwards                                                                  1,062                                     2,105
     Bond forwards                                                                                 59                                     1,568
     To be announced (TBA) forwards                                                             1,691                                     3,760
     Interest rate swaps                                                                           50                                        80
     Credit default swaps                                                                           2                                       714
     Options-fixed income                                                                           2                                        32
Total                                                                                         $ 3,014                                    $8,338




                                                                       24
Note 5 – Fair Value Measurements
        Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting
Standards Codification Section 820 (formerly SFAS No. 157, Fair Value Measurements). The
standard does not require the measurement of financial assets and liabilities at fair value, but
provides a consistent definition of fair value and establishes a framework for measuring fair
value in accordance with GAAP. The standard is intended to increase consistency and
comparability in, and disclosures about, fair value measurements, by providing users with better
information about the extent to which fair value is used to measure financial assets and
liabilities, the inputs used to develop those measurements and the effect of the measurements,
if any, on financial condition, results of operations, liquidity and capital.
        Section 820 defines fair value as the price that would be received to sell an asset or paid
to transfer a liability (an “exit price”) in the principal or most advantageous market for an asset
or liability in an orderly transaction between market participants on the measurement date.
When PBGC measures fair value for its financial assets and liabilities, PBGC considers the
principal or most advantageous market in which PBGC would transact, and PBGC considers
assumptions that market participants would use when pricing the asset or liability. When
possible, PBGC looks to active and observable markets to measure the fair value of identical,
or similar, financial assets or liabilities. When identical financial assets and liabilities are not
traded in active markets, PBGC looks to market observable data for similar assets and liabilities.
In some instances, certain assets and liabilities are not actively traded in observable markets,
and as a result PBGC uses alternative valuation techniques to measure their fair value.
        In addition, Section 820 establishes a hierarchy for measuring fair value. The fair value
hierarchy is based on the observability of inputs to the valuation of a financial asset or liability
as of the measurement date. The standard requires the recognition of trading gains or losses
related to certain derivative transactions whose fair value has been determined using
unobservable market inputs.
        PBGC believes that its valuation techniques and underlying assumptions used to
measure fair value conform to the provisions of Section 820. PBGC has categorized the
financial assets and liabilities that it carries at fair value in the Statements of Financial Condition
based upon the standard’s valuation hierarchy. The hierarchy gives the highest priority to
quoted prices in active markets for identical assets or liabilities (Level 1); next highest priority
to pricing methods with significant observable market inputs (Level 2); and the lowest priority
to significant unobservable valuation inputs (Level 3).
                                                     25
        If the inputs used to measure a financial asset or liability cross different levels of the
hierarchy, categorization is based on the lowest level input that is significant to the fair value
measurement. Management’s assessment of the significance of a particular input to the overall
fair value measurement of a financial asset or liability requires judgment, and considers factors
specific to that asset or liability. The three levels are described below:

Level 1 - Financial assets and liabilities whose values are based on unadjusted quoted prices for
identical assets or liabilities in an active market, such as exchange traded equity securities and
certain U.S. government securities.

Level 2 - Financial assets and liabilities whose values are based on quoted prices for similar
assets and liabilities in active markets, and inputs that are observable for the asset or liability,
either directly or indirectly, for substantially the full term of the asset or liability. Level 2 inputs
include the following:
    a. Quoted prices for similar assets or liabilities in active markets;

    b. Quoted prices for identical or similar assets or liabilities in non-active markets;

    c. Pricing models whose inputs are observable for substantially the full term of the asset
       or liability; and

    d. Pricing models whose inputs are derived principally from or corroborated by
       observable market information through correlation or other means for substantially the
       full term of the asset or liability.

Level 3 - Financial assets and liabilities whose values are based on prices or valuation
techniques that require inputs that are both unobservable in the market and significant to the
overall fair value measurement. These inputs reflect management’s judgment about the
assumptions that a market participant would use in pricing the asset or liability, and based on
the best available information, some of which is internally developed.




                                                      26
               The assets and liabilities that PBGC carries at fair value are summarized by the three
         levels in Section 820 in the following table. The fair value of the asset or liability represents
         the price that would be received to sell the asset or paid to transfer the liability (an exit price).


                       Fair Value Measurements on a Recurring Basis as of September 30, 2009

                                                                     Pricing
                                                                  Methods with        Pricing Methods        Total Net
                                                                   Significant        with Significant     Carrying Value
                                          Quoted Market            Observable          Unobservable        in Statements
                                          Prices in Active           Market                Market           of Financial
(Dollars in millions)                     Markets (Level 1)     Inputs (Level 2)      Inputs (Level 3)       Condition
Assets

Cash and cash equivalents                           $ 392               $ 3,360                                  $ 3,752

Securities lending collateral                                             2,507                                   2,507

Investments:
  Fixed maturity securities                            67               33,959                  $ 343            34,369

  Equity securities                                   643               21,952                    1,538          24,133

  Real estate and real estate                            2                 100                      494             596
   investment trusts

  Other                                                                    212                      441             653

Receivables:
 Derivative contracts *                              1,124               1,736                                    2,860

Liabilities
Payables:

  Derivative contracts **                            1,171               1,843                                    3,014


           * Derivative contracts receivables are comprised of open receivable trades on futures, forwards, TBAs,
           swaps, and collateral deposits.
           ** Derivative contracts payables are comprised of open payable trades on futures, forwards, TBAs, swaps,
           options, and collateral deposits.

      Additional information specific to derivative instruments is disclosed in Note 3 – Investments and Note 4 –
      Derivative Contracts.




                                                              27
                  Changes in Level 3 Assets and Liabilities Measured at Fair Value on a Recurring Basis
                                         For the year ended September 30, 2009

                                  Total Realized
                                  and                 Purchases,         Transfers                   Change in Unrealized
                   Fair Value     Unrealized          Issuances          Into                        Gains(Losses)Related to
                   at             Gains(Losses)       and                and/or      Fair Value at   Financial Instruments
(Dollars in        September      included in         Settlements,       out of      September       held at September 30,
millions)          30, 2008       Income              Net                Level 3     30, 2009        2009
Assets:
 Fixed *                $ 1                $ 23              $319                        $ 343                 $ 23
 Equity *                 10                  13              282                           305                   13
 Private Equity          905                (245)             573                         1,233                 (245)

 Real estate &
 real estate
 investment
 trusts                    1                (61)             554                          494                   (61)

 Other *                   2                  8              431                          441                     8

           *assets which are not actively traded in the market place


           Note 6 – Present Value of Future Benefits
                   The following table summarizes the actuarial adjustments, charges and credits that explain
           how the Corporation’s single-employer program liability for the present value of future benefits
           changed for the years ended September 30, 2009 and 2008.
                   For FY 2009, PBGC used a 25-year select interest factor of 5.17% followed by an ultimate
           factor of 5.03% for the remaining years. In FY 2008, PBGC used a 20-year select interest factor of
           6.66% followed by an ultimate factor of 6.47% for the remaining years. These factors were
           determined to be those needed, given the mortality assumptions, to continue to match the survey of
           annuity prices provided by the American Council of Life Insurers (ACLI). Both the interest factor
           and the length of the select period may vary to produce the best fit with these prices. The prices
           reflect rates at which, in the opinion of management, the liabilities (net of administrative expenses)
           could be settled in the market at September 30, for the respective year, for single-premium
           nonparticipating group annuities issued by private insurers. Many factors, including Federal Reserve
           policy, changing expectations about longevity risk, and competitive market conditions may
           affect these rates.


                                                                    28
        Beginning in FY 2006, and ending with FY 2008, a Barclays Capital Aggregate Bond Index
(formerly Lehman Long Corporate A and Higher Bond index) as of the last trading day of the month
was used and was applied to both the select and ultimate factors instead of the select factor only as
had been prior practice. Interest factors beginning in FY 2006 are now rounded to two decimal
places instead of one so as to be able to state to the level of a single basis point.
        In late 2008, significant volatility in the bond markets led PBGC to research the relationship
between quarterly bond yields and annuity prices. As a result of this research, PBGC ended the use of
a bond index in the determination of interest factors. The quarterly interest factors now incorporate
the most recent quarterly annuity price survey data. Previously, the price survey data was used only
once a year with the bond index then applied to determine subsequent interest factors during the year.
        For September 30, 2009, PBGC used the 1994 Group Annuity Mortality (GAM) 94 Static
Table (with margins), set forward one year and projected 24 years to 2018 using Scale AA. For
September 30, 2008, PBGC used the same table set forward one year, projected 24 years to 2018
using scale AA. The number of years that PBGC projects the mortality table reflects the number of
years from the 1994 base year of the table to the end of the fiscal year (15 years in 2009 versus 14
years in 2008) plus PBGC’s calculated duration of its liabilities (nine years in 2009 and 10 years in
2008). PBGC’s procedure is based on the procedures recommended by the Society of Actuaries UP-
94 Task Force (which developed the GAM94 table) for taking into account future mortality
improvements.
        PBGC continues to utilize the results of its 2004 mortality study. The study showed that the
mortality assumptions used in FY 2003 reflected higher mortality than was realized in PBGC’s
seriatim population. Therefore, PBGC adopted a base mortality table (i.e., GAM94 set forward one
year instead of GAM94 set forward two years) that better reflects past mortality experience. The
ACLI survey of annuity prices, when combined with the mortality table, provides the basis for
determining the interest factors used in calculating the PVFB. The insurance annuity prices, when
combined with the stronger mortality table, result in a higher interest factor.
        The reserve for administrative expenses in the 2006 valuations was assumed to be 1.18
percent of benefit liabilities plus additional reserves for cases in which plan asset determinations,
participant database audits and actuarial valuations were not yet complete. As the result of an updated
study, the expense reserve factor for FY 2007 has changed to 1.37 percent and carried forward to FY
2008 and FY 2009. The factors to determine the additional reserves were also re-estimated and
continue to be based on plan milestone completion as well as case size, number of participants and
                                                     29
   time since trusteeship.
               The present values of future benefits for trusteed multiemployer plans for 2009 and 2008
   reflect the payment of assistance and the changes in interest and mortality assumptions, the passage of
   time and the effect of experience.
               The resulting liability represents PBGC’s best estimate of the measure of anticipated
   experience under these programs.


RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS FOR THE YEARS ENDED SEPTEMBER 30, 2009 AND 2008
                                                                                                           September 30,

 (Dollars in millions)                                                                  2009                                               2008
 Present value of future benefits, at beginning
       of year -- Single-Employer, net                                                         $59,996                                            $69,235
   Estimated recoveries, prior year                                                                165                                                155
   Assets of terminated plans pending trusteeship, net, prior year                                 313                                                540
   Present value of future benefits at beginning of year, gross                                 60,474                                             69,930
   Settlements and judgments, prior year                                                           (56)                                               (55)
   Net claims for probable terminations, prior year                                             (3,154)                                            (3,786)
   Actuarial adjustments -- underwriting:
     Changes in method and assumptions                                       $ (683)                                            $ (715)
     Effect of experience                                                       110                                                 66
     Total actuarial adjustments -- underwriting                               (573)                                              (649)
   Actuarial charges -- financial:
     Passage of time                                                           3,923                                              3,400
     Change in interest rates                                                 10,551                                             (7,564)
     Total actuarial charges -- financial                                     14,474                                             (4,164)
   Total actuarial charges, current year                                                        13,901                                             (4,813)
   Terminations:
     Current year                                                             15,692                                              662
     Changes in prior year                                                      (277)                                            (382)
     Total terminations                                                                         15,415                                                280
   Benefit payments, current year*                                                              (4,478)                                            (4,292)
   Estimated recoveries, current year                                                             (175)                                              (165)
   Assets of terminated plans pending trusteeship, net, current year                              (820)                                              (313)
   Settlements and judgments, current year                                                          58                                                 56
   Net claims for probable terminations:
     Future benefits**                                                        4,610                                             12,606
     Estimated plan assets and recoveries from sponsors                      (2,740)                                            (9,452)
     Total net claims, current year                                                              1,870                                              3,154
 Present value of future benefits,
   at end of year -- Single-Employer, net                                                       83,035                                             59,996
 Present value of future benefits,
   at end of year -- Multiemployer                                                                   1                                                  1
 Total present value of future benefits, at end of year, net                                   $83,036                                            $59,997

  * The benefit payments of $4,478 million and $4,292 million include $140 million in 2009 and $45 million in 2008 for benefits paid from plan
 assets by plans prior to trusteeship.
 ** The future benefits for probable terminations of $4,610 million and $12,606 million for fiscal years 2009 and 2008, respectively, include
 $227 million and $59 million, respectively, for probable terminations not specifically identified and $4,383 million and $12,547 million,
 respectively, for specifically identified probables.




                                                                               30
                  The following table details the assets that make up single-employer terminated plans pending
  termination and trusteeship:

ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION AND TRUSTEESHIP, NET
                                      September 30, 2009      September 30, 2008
                                      Basis      Market      Basis        Market
(Dollars in millions)                              Value                    Value
U.S. Government securities            $ 12         $ 14      $ 10           $ 11
Corporate and other bonds               329          340       101           101
Equity securities                       460          456       117           120
Insurance contracts                       0            0         0             0
Other                                    10           10        82            81

Total, net                                                   $ 811                $ 820                            $ 310             $ 313



Net Claims for Probable Terminations: Factors that are presently not fully determinable may be
responsible for these claim estimates differing from actual experience. Included in net claims for
probable terminations is a provision for future benefit liabilities for plans not specifically identified.
The values recorded in the following reconciliation table have been adjusted to the expected dates of
termination.

RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
                                                                                         September 30,
(Dollars in millions)                                                   2009                                       2008
Net claims for probable terminations, at beginning of year                     $ 3,154                                     $3,786
New claims                                                   $ 1,643                                     $ 233
Actual terminations                                           (3,077)                                      (148)
Deleted probables                                                (18)                                         0
Change in benefit liabilities                                    168                                     (3,400)
Change in plan assets                                              0                                      2,683
Loss (credit) on probables                                                      (1,284)                                      (632)
Net claims for probable terminations, at end of year                           $ 1,870                                     $3,154


The following table itemizes the probable exposure by industry:
PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
(Dollars in millions)                                            FY 2009             FY 2008
Manufacturing                                                      $1,178                $2,964
Services                                                              467                    90
Health Care                                                           168                     5
Wholesale and Retail Trade                                             57                    49
Finance, Insurance, and Real Estate                                     -                    46
Total                                                              $1,870                $3,154



  For further detail, see Note 2 subpoint (4).



                                                              31
                  The following table shows what has happened to plans classified as probables. This table
  does not capture or include those plans that were not previously classified as probable before they
  terminated.


ACTUAL PROBABLES EXPERIENCE
As Initially Recorded Beginning in 1987
(Dollars in millions)                                            Status of Probables from 1987-2008 at September 30, 2009
                                                           Number of           Percent of                   Net           Percent of
Beginning in 1987, number of plans reported as Probable:       Plans                Plans                 Claim           Net Claim
  Probables terminated                                           340                80%                $27,454                 75%
   Probables not yet terminated or deleted                          0                0                         0                0
   Probables deleted                                              84                20                   9,372                25
   Total                                                         424              100%                 $36,826               100%




Note 7 – Multiemployer Financial Assistance
               PBGC provides financial assistance to multiemployer defined benefit pension plans in the form
of loans. An allowance is set up to the extent that repayment of these loans is not expected.


NOTES RECEIVABLE MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                                               September 30,                           September 30,
(Dollars in millions)                                                                               2009                                    2008

Gross balance at beginning of year                                                                     $311                                    $226
Financial assistance payments - current year                                                             86                                      85
Write-offs related to settlement agreements                                                             (10)                                     0
Subtotal                                                                                                387                                     311
Allowance for uncollectible amounts                                                                    (387)                                   (311)
Net balance at end of year                                                                            $ 0                                     $ 0



                  The losses from financial assistance reflected in the Statements of Operations and Changes in
  Net Position include period changes in the estimated present value of nonrecoverable future financial
  assistance.
                  As of September 30, 2009, the corporation expects 104 multiemployer plans will exhaust plan
  assets and need financial assistance from PBGC to pay guaranteed benefits and plan administrative
  expenses. The present value of nonrecoverable future financial assistance for these 104 plans is
  $2.296 billion. The 104 plans fall into three categories – plans currently receiving financial assistance;
  plans that have terminated but have not yet started receiving financial assistance from PBGC; and
  ongoing plans (not terminated) that the corporation expects will require financial assistance in the
  future.

                                                                        32
                Of the 104 plans:
           •      39 have exhausted plan assets and are currently receiving financial assistance payments from
                  PBGC. The present value of future financial assistance payments for these insolvent 39 plans
                  is $890 million.


           •      52 plans have terminated but have not yet started receiving financial assistance payments
                  from PBGC. Terminated multiemployer plans no longer have employers making regular
                  contributions for covered work, though some plans continue to receive withdrawal liability
                  payments from withdrawn employers. In general, PBGC records a loss for future financial
                  assistance for any underfunded multiemployer plan that has terminated. The present value of
                  future financial assistance payments to these 52 terminated plans is $1.037 billion.


           •      13 plans are ongoing (i.e., have not terminated), but PBGC expects these plans will exhaust
                  plan assets and need financial assistance within 10 years. In this analysis, PBGC takes into
                  account the current plan assets, future income to the plan, the statutory funding rules, and
                  the possibility for future increases in contributions. The present value of future financial
                  assistance payments for these 13 ongoing plans is $369 million.


  PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
  ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                                                                               September 30,             September 30,
  (Dollars in millions)                                                            2009                        2008

  Balance at beginning of year                                                    $ 1,768                     $ 2,124
  Changes in allowance:
   Losses (credits) from financial assistance                                        614                         (271)
   Financial assistance granted
     (previously accrued)                                                             (86)                        (85)
  Balance at end of year                                                          $ 2,296                     $ 1,768




 Note 8 – Accounts Payable and Accrued Expenses
        The following table itemizes accounts payable and accrued expenses reported in the Statements
 of Financial Condition:

ACCOUNTS PAYABLE AND ACCRUED EXPENSES
                                                                             September 30,                September 30,
(Dollars in millions)                                                               2009                         2008
Annual leave                                                                         $    7                      $     6
Other payables and accrued expenses                                                      80                          115

Accounts payable and accrued expenses                                                $ 87                        $ 121


                                                            33
Note 9 – Contingencies
         Single-employer plans sponsored by companies whose credit quality is below investment
   grade pose a greater risk of being terminated. In addition, there are some multiemployer plans that
   may require future financial assistance. The estimated unfunded vested benefits exposure amounts
   disclosed below represent the Corporation’s best estimates of the reasonably possible exposure to loss
   in these plans given the inherent uncertainties about these plans.
                   In accordance with the FASB Accounting Standards Codification Section 450 (formerly SFAS
   No. 5), PBGC classified a number of these companies as reasonably possible rather than probable
   terminations as the sponsors’ financial condition and other factors did not indicate that termination of
   their plans was likely. This classification was done based upon information about the companies as of
   September 30, 2009.
                   The best estimate of unfunded vested benefits exposure to loss for the single-employer plans
   of these companies was measured as of December 31, 2008. The reasonably possible exposure to
   loss in these plans was $168 billion for FY 2009. This is a significant increase from $47 billion in FY
   2008. This reasonably possible exposure to loss increased dramatically primarily due to deterioration
   of credit quality and poor asset returns that occurred during calendar year 2008.
                   The best estimate of unfunded vested benefits exposure to loss is not based on PBGC-
   guaranteed benefit levels. PBGC calculated this estimate, as in previous years, by using data obtained
   from filings and submissions to the government and from corporate annual reports for fiscal years
   ending in calendar 2008. The Corporation adjusted the value reported for liabilities to December 31,
   2008, PBGC select rate of 5.38% that was derived using the 1994 Group Annuity Mortality Static
   Table (with margins) projected to 2018 using Scale AA. When available, data were adjusted to a
   consistent set of mortality assumptions. The underfunding associated with these plans could be
   substantially different at September 30, 2009, because of the economic conditions that existed
   between December 31, 2008 and September 30, 2009. The Corporation did not adjust the estimate
   for events that occurred between December 31, 2008, and September 30, 2009.
                   The following table by industry itemizes the reasonably possible exposure to loss:

REASONABLY POSSIBLE EXPOSURE TO LOSS BY INDUSTRY (PRINCIPAL CATEGORIES)
 (Dollars in millions)                                                          FY 2009         FY 2008
 Manufacturing *                                                               $101,298         $20,995
 Transportation, Communication and Utilities **                                  30,555          16,161
 Services                                                                        13,314           2,412
 Wholesale and Retail Trade                                                      13,031           4,495
 Health Care                                                                      4,990           1,531
 Agriculture, Mining, and Construction                                            2,536             700
 Finance, Insurance, and Real Estate                                              2,140             438
 Total                                                                         $167,864         $46,732

 * For FY 2009 and FY 2008, primarily automobile/auto parts and primary and fabricated metals
 ** For FY 2009 and FY 2008, primarily airline

                                                                          34
             PBGC included amounts in the liability for the present value of nonrecoverable future
 financial assistance (see Note 7) for multiemployer plans that PBGC estimated may require future
 financial assistance. In addition, PBGC currently estimates that it is reasonably possible that other
 multiemployer plans may require future financial assistance in the amount of $326 million.
             The Corporation calculated the future financial assistance liability for each multiemployer plan
 identified as probable (see Note 7), or reasonably possible as the present value of guaranteed future
 benefit and expense payments net of any future contributions or withdrawal liability payments as of
 the later of September 30, 2009, or the projected (or actual, if known) date of plan insolvency,
 discounted back to September 30, 2009. The Corporation’s identification of plans that are likely to
 require such assistance and estimation of related amounts required consideration of many complex
 factors, such as an estimate of future cash flows, future mortality rates, and age of participants not in
 pay status. These factors are affected by future events, including actions by plans and their sponsors,
 most of which are beyond the Corporation’s control.


Note 10 – Commitments

             PBGC leases its office facility under a commitment that began on January 1, 2005, and expires
 December 10, 2018. This lease provides for periodic rate increases based on increases in operating
 costs and real estate taxes over a base amount. In addition, PBGC is leasing space for field benefit
 administrators. These leases began in 1996 and expire in 2013. The minimum future lease payments
 for office facilities having noncancellable terms in excess of one year as of September 30, 2009, are as
 follows:


COMMITMENTS: FUTURE LEASE PAYMENTS

(Dollars in millions)
Years Ending                                                           Operating
September 30,                                                            Leases
2010                                                                      $ 20.3
2011                                                                        19.8
2012                                                                        20.4
2013                                                                        20.0
2014                                                                        20.2
Thereafter                                                                  89.7
Minimum lease payments                                                   $190.4




Lease expenses were $21.4 million in 2009 and $21.5 million in 2008.



                                                       35
Note 11 – Premiums
             For both the single-employer and multiemployer programs, ERISA provides that PBGC shall
continue to guarantee basic benefits despite the failure of a plan administrator to pay premiums when
due. PBGC assesses interest and penalties on the unpaid portion of or underpayment of premiums.
            Interest continues to accrue until the premium and the interest due are paid. For plan year
2008 the flat-rate premiums for single-employer pension plans was $33 per participant and for
multiemployer plans, $9 per participant. For plan year 2009, per participant rates were $34 for single-
employer plans and $9 for multiemployer plans. PBGC recorded net premium income of $1.917
billion and consisted of $1.224 billion in flat-rate premiums, $699 million in variable-rate premiums,
and $590 million in termination premiums offset by a bad debt expense of $596 million. Bad debt
expenses include a reserve for uncollectible premium receivables consisting of termination premiums
that are reserved at 100 percent, interest and penalties. Net premium income for fiscal year 2008 was
$1.430 billion and consisted of approximately $1.194 billion in flat-rate premiums, $241 million in
variable-rate premiums, and $57 million in termination premiums offset by a bad debt expense of $62
million. The termination premium applies to certain plan terminations occurring after 2005 and is set
at $1,250 per participant annually for three years following termination.


Note 12 – Losses from Completed and Probable Terminations
           Amounts reported as losses are the present value of future benefits less related plan assets and
the present value of expected recoveries from sponsors. The following table details the components
that make up the losses:

LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS -- SINGLE-EMPLOYER PROGRAM
                                                                                    For the Years Ended September 30,
                                                                    2009                                                        2008
                                                                 Changes in                                                  Changes in
                                                New              Prior Year                                    New           Prior Year
(Dollars in millions)                        Terminations       Terminations         Total                 Terminations     Terminations            Total
Present value of future benefits                $15,692                $ (277)      $15,415                   $ 662                  $(382)         $ 280
Less plan assets                                  9,860                      29       9,889                     391                     74             465
Plan asset insufficiency                          5,832                   (306)        5,526                    271                   (456)           (185)
Less estimated recoveries                             0                      10           10                      0                     10              10
Subtotal                                          5,832*                  (316)        5,516                    271*                  (466)            (195)
Settlements and judgments                                                     2            2                                             1                1
Loss (credit) on probables                        (3,077)                 1,793       (1,284)**                (148)                  (484)           (632)**
Total                                           $ 2,755                  $1,479     $ 4,234                   $ 123                 $ (949)         $(826)
* gross amounts for plans terminated during the year
** see Note 6 – includes $3,077 million at September 30, 2009, and $148 million at September 30, 2008, previously recorded relating to plans that
  terminated during the period




                                                                          36
Note 13 – Financial Income

     The following table details the combined financial income by type of investment for both the
single-employer and multiemployer programs:
 INVESTMENT INCOME SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
                              Single-Employer   Multiemployer    Memorandum       Single-Employer   Multiemployer    Memorandum
                                 Program          Program           Total            Program           Program           Total
 (Dollars in millions)         Sept. 30, 2009   Sept. 30, 2009   Sept. 30, 2009    Sept. 30, 2008   Sept. 30, 2008   Sept. 30, 2008


 Fixed income securities:

    Interest earned              $ 1,560           $ 45           $ 1,605           $    2,071         $ 63          $      2,134
    Realized gain (loss)           (1,071)           24             (1,047)              1,268           45          $      1,313
    Unrealized gain (loss)          4,054            52              4,106              (2,762)          13          $     (2,749)

 Total fixed income
   securities                       4,543            121              4,664               577            121         $        698

 Equity securities:
   Dividends earned                    40               0                40                 72              0        $         72
   Realized loss                     (521)              0              (521)              (835)             0        $       (835)
   Unrealized gain (loss)           2,302               0             2,302             (4,025)             0        $     (4,025)

    Total equity securities         1,821               0             1,821             (4,788)             0        $     (4,788)

 Other income (loss)                  (34)              0               (34)                47              0        $         47

 Total investment income
  (loss)                         $ 6,330           $ 121          $ 6,451           $ (4,164)          $ 121         $     (4,043)




 Note 14 – Employee Benefit Plans
           All permanent full-time and part-time PBGC employees are covered by the Civil Service
 Retirement System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-
 time employees with less than five years service under CSRS and hired after December 31, 1983, are
 automatically covered by both Social Security and FERS. Employees hired before January 1, 1984,
 participate in CSRS unless they elected and qualified to transfer to FERS.
           The Corporation’s contribution to the CSRS plan for both 2009 and 2008 was 7.0 percent of
 base pay for those employees covered by that system. For those employees covered by FERS, the
 Corporation’s contribution was 11.2 percent of base pay for both 2009 and 2008. In addition, for
 FERS-covered employees, PBGC automatically contributes one percent of base pay to the employee’s
 Thrift Savings account, matches the first three percent contributed by the employee and matches one-
 half of the next two percent contributed by the employee. Total retirement plan expenses amounted
 to $16 million in 2009 and $15 million in 2008.
           These financial statements do not reflect CSRS or FERS assets or accumulated plan benefits
                                                                     37
applicable to PBGC employees. These amounts are reported by the U.S. Office of Personnel
Management (OPM) and are not allocated to the individual employers. OPM accounts for federal
health and life insurance programs for those eligible retired PBGC employees who had selected
federal government-sponsored plans. PBGC does not offer other supplemental health and life
insurance benefits to its employees.


Note 15 – Cash Flows
         The following two tables, one for Sales and one for Purchases, provide further details on cash
flows from investment activity. Sales and purchases of investments are driven by the level of newly
trusteed plans, the unique investment strategies implemented by PBGC’s investment managers, and
the varying capital market conditions in which they invest during the year. These cash flow numbers
can vary significantly from year to year based on the fluctuation in these three variables.


  INVESTING ACTIVITIES (SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
  COMBINED)
                                                                  September 30,
    (Dollars in millions)                                2009                     2008
    Proceeds from sales of investments:
       Fixed maturity securities                      $173,000                $198,338
       Equity securities                                 5,283                     462
       Other/uncategorized                              15,362                  20,803
    Memorandum total                                  $193,645                $219,603

    Payments for purchases of investments:
       Fixed maturity securities                     $(164,636)               $(197,472)
       Equity securities                               (13,147)                    (459)
       Other/uncategorized                             (12,689)                 (20,783)
    Memorandum total                                 $(190,472)               $(218,714)




                                                   38
            The following is a reconciliation between the net income as reported in the Statements of
 Operations and Changes in Net Position and net cash provided by operating activities as reported in
 the Statements of Cash Flows.


RECONCILIATION OF NET INCOME TO NET CASH PROVIDED BY OPERATING ACTIVITIES
                                                               Single-Employer       Multiemployer         Memorandum
                                                                   Program              Program                Total
                                                                  September 30,       September 30,          September 30,
 (Dollars in millions)                                          2009        2008     2009       2008       2009         2008

 Net income (loss)                                       $   (10,399)   $ 2,433     $(396)     $ 482   $(10,795)    $ 2,915
 Adjustments to reconcile net income to net cash
  provided by operating activities:
    Net (appreciation) decline in fair value of
        investments                                          (4,678)      6,268        (76)     (58)     (4,754)      6,210
    Net gain (loss) of plans pending termination and
        trusteeship                                              (16)        25         0         0         (16)        25
    Losses (credits) on completed
        and probable terminations                              4,234       (826)        0         0      4,234         (826)
    Actuarial charges (credits)                               13,901     (4,813)        0        (1)    13,901       (4,814)
    Benefit payments - trusteed plans                         (4,337)    (4,247)        0         0     (4,337)      (4,247)
    Settlements and judgments                                      0          (1)       0         0          0           (1)
    Cash received from plans upon trusteeship                   368         155         0         0        368         155
    Receipts from sponsors/non-sponsors                          204        142         0         0        204         142
    Amortization of discounts/premiums                           (39)      (429)       (4)      (41)       (43)        (470)
    Changes in assets and liabilities, net of effects
       of trusteed and pending plans:
         Increase in receivables                               (409)       (149)       (9)       (8)       (418)       (157)
          Increase (decrease) in present value of
            nonrecoverable future financial assistance                               528       (356)        528        (356)
          Increase in unearned premiums                           24         29        0          5          24          34
          Increase (decrease) in accounts payable                (76)        52        0          0         (76)         52
 Net cash provided (used) by operating activities            $(1,223)   $(1,361)    $ 43      $ 23      $(1,180)    $(1,338)




 Note 16 – Litigation
            Legal challenges to PBGC’s policies and positions continued in 2009. At the end of the fiscal
 year, PBGC had 51 active cases in state and federal courts and 733 bankruptcy cases.
            PBGC records as a liability on its financial statements an estimated cost for unresolved
 litigation to the extent that losses in such cases are probable and estimable in amount. In addition to
 such recorded costs, PBGC estimates with a degree of certainty that possible losses of up to $68
 million could be incurred in the event that PBGC does not prevail in these matters.


 Note 17 – Subsequent Events
            Management evaluated subsequent events through November 12, 2009, the date the financial
 statements were available to be issued. Events or transactions occurring after September 30, 2009,
 but prior to November 12, 2009 that provided additional evidence about conditions that existed at
 September 30, 2009, for either the single-employer or multiemployer program, have been recognized
                                                  39
in the financial statements for the period ended September 30, 2009.
      For the single-employer program, subsequent to September 30, 2009, PBGC obtained a
recovery in the form of an ownership interest in a new entity, emerging from a chapter 11 bankruptcy
proceeding, initially valued in the range of $550 million to $700 million. This current value estimate
may change significantly over time.
      For the multiemployer program, events or transactions that provided evidence about
conditions that did not exist at September 30, 2009 but arose before the financial statements were
available to be issued have not been recognized in the financial statements for the period ended
September 30, 2009.




                                                   40
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2009 and 2008 Financial Statements

      Audit Report AUD-2010-1 / FA-09-64-1




                   Section III

          Management Comments
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
